<html>
<title> - BENEFITS OF INTEGRATED DRUG DEMAND-REDUCTION STRATEGY: EFFECTS OF TREATMENT FUNDING ON PUBLIC HEALTH AND PUBLIC SAFETY IN BALTIMORE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




   BENEFITS OF INTEGRATED DRUG DEMAND-REDUCTION STRATEGY: EFFECTS OF 
   TREATMENT FUNDING ON PUBLIC HEALTH AND PUBLIC SAFETY IN BALTIMORE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2002

                               __________

                           Serial No. 107-150

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

84-447              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
       Nicholas P. Coleman, Professional Staff Member and Counsel
                          Conn Carroll, Clerk
         Julian A. Haywood, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2002....................................     1
Statement of:
    Beilenson, Peter, M.D., M.P.H., Baltimore City health 
      commissioner and chairman of the board of directors of 
      Baltimore Substance Abuse Systems [BSAS], Inc..............    51
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland......................................     5
    Hickey, John, director, Tuerk House Drug Treatment Center....    65
    Johnson, Jeannette, Ph.D., professor, School of Social Work, 
      University of Buffalo......................................    55
    Norris, Edward T., commissioner, Baltimore City Police 
      Department.................................................    20
    O'Malley, Martin, mayor, city of Baltimore...................    16
    Robinson, Renee, treatment and criminal justice program 
      manager, Washington, DC-Baltimore HIDTA....................    31
    Seward, Elizabeth, graduate and program coordinator, Tuerk 
      House Drug Treatment Center................................    69
    Townsend, Kathleen Kennedy, Lt. Governor of Maryland.........     8
    Weitzman, Jamey, judge, Baltimore City Drug Treatment Court, 
      and Chair, Maryland State Drug Courts Commission...........    38
Letters, statements, etc., submitted for the record by:
    Beilenson, Peter, M.D., M.P.H., Baltimore City health 
      commissioner and chairman of the board of directors of 
      Baltimore Substance Abuse Systems [BSAS], Inc., prepared 
      statement of...............................................    54
    Hickey, John, director, Tuerk House Drug Treatment Center, 
      prepared statement of......................................    67
    Johnson, Jeannette, Ph.D., professor, School of Social Work, 
      University of Buffalo, prepared statement of...............    57
    Norris, Edward T., commissioner, Baltimore City Police 
      Department, prepared statement of..........................    22
    O'Malley, Martin, mayor, city of Baltimore, prepared 
      statement of...............................................    18
    Robinson, Renee, treatment and criminal justice program 
      manager, Washington, DC-Baltimore HIDTA, prepared statement 
      of.........................................................    34
    Seward, Elizabeth, graduate and program coordinator, Tuerk 
      House Drug Treatment Center, prepared statement of.........    72
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3
    Townsend, Kathleen Kennedy, Lt. Governor of Maryland, 
      prepared statement of......................................    11
    Weitzman, Jamey, judge, Baltimore City Drug Treatment Court, 
      and Chair, Maryland State Drug Courts Commission, prepared 
      statement of...............................................    40

 
   BENEFITS OF INTEGRATED DRUG DEMAND-REDUCTION STRATEGY: EFFECTS OF 
   TREATMENT FUNDING ON PUBLIC HEALTH AND PUBLIC SAFETY IN BALTIMORE

                              ----------                              


                         TUESDAY, MARCH 5, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                     Baltimore, MD.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
War Memorial Building, 101 North Gay Street, Baltimore, MD, 
Hon. Mark E. Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder and Cummings.
    Also present: Christopher Donesa, staff director and chief 
counsel; Nicholas P. Coleman, professional staff member and 
counsel; and Conn Carroll, clerk.
    Mr. Souder. The subcommittee will come to order. Good 
morning and thank you for coming.
    It is a great pleasure to be here in Baltimore today at the 
invitation of our Ranking Member Congressman Cummings and to be 
joined by Lt. Governor Townsend, Mayor O'Malley and so many 
other leaders to discuss the successes of drug treatment 
programs in Baltimore.
    Drug treatment is possibly the most essential component of 
an integrated national drug strategy. The events of last year 
prevented us from spending as much of the subcommittee's time 
as we would have liked on drug treatment issues, so I welcome 
the opportunity presented today to return to and accelerate the 
discussion. Two of the three main goals set forth in the 
National Drug Control Strategy recently announced by President 
Bush and Director Walters are related to prevention and 
treatment: ``Stopping Use Before It Starts'' through education 
and community action, and ``Helping America's Drug Users'' by 
getting treatment resources where they are needed.
    As part of the second goal, both the administration and the 
subcommittee will be seeking better information about 
fundamental questions: what works in drug treatment, why it 
works, and where there are shortages of capacity. We are 
looking at significant increased in budget support for the 
Substance Abuse and Mental Health Services Administration 
[SAMHSA], but the Government cannot invest those funds wisely 
until we know how best to provide those services. The Office of 
National Drug Control Policy is redoubling its efforts to 
address those fundamental questions, and we look forward to 
working with them.
    One thing we do know is that effective drug treatment 
programs can make a meaningful difference. Drug treatment can 
reduce use of both hard drugs and marijuana, illegal behavior 
by addicts and improvement in employment status. The Drug Abuse 
Treatment Outcome Study found that, nationally, use of the 
primary drug of choice by addicts dropped 48 percent and that 
the number of health visits related to substance abuse declined 
by more than 50 percent. Five years after treatment there was a 
21 percent reduction in the use of illegal drugs. While these 
statistics and successes do not themselves hold the key to all 
treatment issues, we must for example, also find out how to 
encourage addicts to enter and stay in treatment, as well as 
how to make it more available. They speak to the plain fact 
that a good treatment program can clearly have an impact on the 
lives, health and future of individual users and their 
families.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.001
    
    [GRAPHIC] [TIFF OMITTED] T4447.002
    
    Mr. Souder. Today we are in Baltimore to hear about the 
findings of the ``Steps to Success'' drug and alcohol treatment 
outcomes study, reviewing the many successes of treatment 
programs in Baltimore. We will be joined on our first panel by 
Baltimore Mayor Martin O'Malley, Lt. Governor Kathleen Kennedy 
Townsend, and Police Commissioner Edwin Norris. On our second 
panel we will hear testimony from Ms. Renee Robinson, Treatment 
and Criminal Justice Program Manager for the Baltimore/
Washington HIDTA, and Judge Jamey Weitzman from the Baltimore 
City Drug Treatment Court. On our third panel we will focus 
directly on the ``Steps to Success'' report with Dr. Peter 
Beilenson, Baltimore City health commissioner, Dr. Jeannette 
Johnson of SUNY-Buffalo, Mr. John Hickey of the Tuerk House 
Drug Treatment Center, and Elizabeth Seward, a graduate of the 
Tuerk House program. Thanks to all of you for coming, and to 
Congressman Cummings and his staff for organizing the excellent 
panels of witnesses today. I look forward to your testimony.
    Now I would like to recognize Mr. Cummings for his opening 
statement.

   STATEMENT OF HON. ELIJAH E. CUMMINGS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cummings. Mr. Chairman, I want to thank you for 
agreeing to my request for today's field hearing of the House 
Government Reform Subcommittee on Criminal Justice, Drug Policy 
and Human Resources. I truly appreciate both your willingness 
to come to Baltimore City, and your sincere interest in the 
issue of drug treatment.
    I also want to thank all of our witnesses for being here to 
share their diversion of individual perspectives toward 
Baltimore's progress in providing effective drug treatment. I 
might add that when the subcommittee came here before in which 
Chairman Mica was then the chairman, it was no doubt that it 
did have some effect, because of the fact that we saw a greater 
attention after that given to drug treatment. And I am sure 
with your commitment to treatment we will see similar benefits 
from today's hearing.
    As we all now, America's war on drugs has generated another 
equally intense war of conflicting opinions. While there is 
consensus around the premise that the problem of illegal drug 
consumption inflicts enormous harm on America and society, 
there also has been a sharp disagreement as to how to go about 
eradicating it. As is the case in most public disputes, the 
issue boils down to how to allocate finite resources. We can 
all agree that we must do something about stopping the flow of 
drugs into the United States from abroad, that we must enforce 
the law, that we must provide treatment, that we must try to 
prevent and discourage drug use, and so on. But in what order?
    Budgetary realities dictate that we must make choices. 
Every expenditure, therefore, must be justified in terms of 
benefits to the public that it supports. In the minds of some 
policymakers, the extent to which we can establish that 
treatment actually works is central to the debate over 
increasing Federal funding. We have heard that over and over 
again now in Washington where the question has raised, does 
treatment work and how do we make sure that it does work. And I 
noticed in the Lt. Governor's testimony, she talks about that. 
I look forward to hearing your testimony.
    While there has been ample research on the subject of drug 
treatment outcomes, large differences in methodology focus, 
scope and rigor of the studies make evaluating the accuracy of 
the data very difficult. A March 1998 report by the U.S. 
General Accounting Office surveyed the available research on 
drug treatment outcomes in order to determine the effectiveness 
of Federal drug treatment funding. The report concluded that, 
``While studies conducted over nearly three decades 
consistently show that treatment reduces drug use and crime, 
current data collection techniques do not allow accurate 
measurement of the extent to which treatment reduces the use of 
illicit drugs.'' Now that report was from 1998.
    Opponents of increased funding cite the lack of definitive 
proof of treatment effectiveness as justification for their 
position. At the same time, the proponents of making drug 
treatment available on demand stress the abundance of data that 
shows that drug treatment is in fact beneficial. The opponents 
of increased treatment funding have tended to focus upon the 
absolute abstinence as a measure of treatment effectiveness. 
Meanwhile, proponents of the expanded heed the advice of the 
institute of medicine. The institute has found that, ``An 
extended abstinence, even if punctuated by slips and short 
relapses, is beneficial in an of itself, and may serve as a 
critical intermediate step toward lifetime abstinence and 
recovery.''
    In the context of this debate I welcome the fact that 
policymakers within Congress and the administration are now 
seeking to identify a common ground on this important issue. We 
may be seeing the emergence of a new pragmatic consensus that 
recognizes the need for effective treatment, programs and good 
law enforcement practices to function as two complimentary arms 
of the same successful strategy. In this environment, the need 
for new and better research on treatment effectiveness cannot 
be more clear.
    The recently completed Baltimore Drug and Alcohol Treatment 
Outcome Study, ``Steps to Success'' comes at an opportune time. 
As we will hear from those who commissioned ``Steps to 
Success'', those who conducted the research and those who 
cooperated, the study is the largest and most rigorously 
conducted scientific study of drug treatment outcomes to focus 
on a single city. There is none like it in this country. The 
unequivocal conclusion is that treatment does work to reduce 
drug and alcohol abuse. And treatment also reduces the range of 
other maladies that flow from drug use, including drug related 
crime, overdose deaths, emergency room presentments, risky 
health behaviors and depression.
    Mr. Chairman, Baltimore City's devastating drug problem has 
become well known to the Nation. For the benefit of communities 
around the country that are similarly besieged by drug abuse, 
it is very, very important that Baltimore's recent progress of 
addressing the drug plague and the challenges that remain to be 
overcome should also be well known. That I think is the main 
reason why we are here today. For the benefit of individuals, 
families and communities throughout the United States, we need 
to carefully consider what Baltimore has learned from its 
experience with expanded drug treatment funds.
    I again thank the chairman. I want to thank all of the 
staff of the--the chairman's staff and all of my staff, and 
every--and the committee's staff that took time to pull all 
this together. I really appreciate it. It took a phenomenal 
amount of work to take the hearing out of Washington and bring 
it to any locale, just puts a tremendous burden on the staff. 
And I want to thank all of you for your cooperation and your 
hard work. With that, Mr. Chairman, I look forward to hearing 
from our witnesses.
    Mr. Souder. Thank you very much. And, hopefully, today will 
help us. We have had difficulty moving Congressman Ramstad's 
bill on insurance to make sure that insurance companies will 
help provide the coverage for drug and alcohol treatment. 
Because so many times people lose their coverage and get kicked 
out of a program because their moneys run out. And that has 
been one of our long-standing problems.
    I also want to say, it is good to be back in Baltimore. In 
my earlier lives when I was public and staff director on the 
Children Family Committee, we visited the Johns Hopkins in the 
mid-80's who was a pioneer in dealing with crack babies, trying 
to identify family problems there. I have been up in Sandtown 
looking at the Community Health Center there years ago as well 
in that work. Because as we realize, and then when I chaired 
the Empowerment Subcommittee that was created when the 
republicans first took over Congress, we had Mr. Mafumy, your 
predecessor, in to talk about some of the economic development 
things that need to be done. Because a lot of these problems 
are interrelated. And we all realize that. Baltimore has been a 
creative center. We also worked with, when I was with the 
Children Family Committee with one of the distinguished 
Lieutenant Governors relatives, Eunice Schriver, on a number of 
problems, teen pregnancy. And your family has been very active. 
And we appreciate you coming today.
    First, let me take care of a couple of procedural matters. 
I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record. Then the answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and the 
witnesses may be included in the hearing record. And that all 
Members may be permitted to revise and extend their remarks. 
Without objection it is so ordered.
    Since this is an oversight committee, it is our standard 
practice to ask all of our witnesses to testify under oath. So 
if you would rise and swear the other witnesses in as they 
come.
    [Witness sworn.]
    Mr. Souder. Thank you very much. Let the record show that 
the witness has answered in the affirmative.
    It is our honor today to have the distinguished Lt. 
Governor Kathleen Kennedy Townsend here. We appreciate you 
coming, and you are recognized for 5 minutes.

    STATEMENT OF KATHLEEN KENNEDY TOWNSEND, LT. GOVERNOR OF 
                            MARYLAND

    Ms. Kennedy Townsend. Thank you very much, Chairman Souder. 
And thank you for your kind words that you have said about our 
city and our creativity. We really appreciate it. It is great 
to be here with Congressman Cummings who has been a leader in 
making our community safer. And has been a real partner in our 
state's effort to make sure that we are doing all we can to 
help our communities and to help our families and our citizens 
in this city. Thank you, Congressman Cummings.
    As Lieutenant Governor, I have been in the unique position 
to direct Maryland's substance abuse and law enforcement 
efforts over the last 7\1/2\ years. In fact, I chair Maryland's 
Drug and Alcohol Council. And we made recommendations 2 years 
ago that we should increase the amount that is spent on drug 
treatment by $300 million over the next 10 years. I was glad to 
hear you say that part of that should come from private 
insurance. Our council said that $200 million should come from 
the state funds. But that $100 million should come from private 
insurers who, as you pointed out, very well often do not want 
to fund drug treatment or mental health treatment. So I wish 
you the best, I wish you luck in making sure the law passes as 
you have described it.
    I also oversee as Lieutenant Governor the Departments of 
Public Safety and Corrections, Juvenile Justice, and the 
Maryland State Police. I am chair of the Cabinet Council on 
Criminal and Juvenile Justice. With help from many partners 
throughout the state, state agencies, local jurisdictions, 
research based programs, we have steered Maryland toward 
dramatic reductions in crime. In fact, the lowest reductions in 
a generation. This would not have happened without our 
integrated approach of effective treatment and smart policing. 
What we have achieved has not been easy. But with leadership 
and vision, and I have to tell you, help from the Federal 
Government, we have found the right road. And the Federal 
Government has been an essential partner in all that we are 
doing in Maryland and in Baltimore City. And we are very, very 
grateful that you have come here to listen to what we have 
done. And I hope to help us in the coming session.
    Let me just take a few minutes to frame this issue in a 
broad view. Let me say, and I think this is what Congressman 
Cummings said and Congressman Souder as well, for a long time 
we were stuck in a fruitless debate about false choices. Should 
we spend more money on treatment, or should we spend more money 
on enforcement. After a long time of self-doubt, we also we 
were wondering if this treatment work, do prosecutors, 
probation officers, police actually make a difference. So there 
was always a question, what is effective, what will really help 
communities, what will help citizens.
    I would say that in Maryland we have learned some important 
lessons over these last few years. And I would like to welcome 
this opportunity to tell you what we have learned. One, we have 
learned that effective law enforcement with smart policing, 
involving parole and probation officers and prosecutors, works. 
That drug treatment works. And that getting communities 
involved to improve the quality of our lives works. We can 
improve the quality of life in our communities. We can provide 
and must provide both effective law enforcement and effective 
drug treatment.
    We have invested in fighting crime in these ways and we 
have seen consistent reductions in crime. It has been a 
partnership of the Federal Government, state government, local 
government, and countless citizens who simply refused to give 
up.
    Let me just touch briefly on what we have done at the state 
level. The State has invested in law enforcement in Baltimore 
City. In the past 2 years, for example, we have doubled the 
capacity of the State's Attorney's Office to prosecute the 
violet gun crimes. The result, more convictions of violet 
felons who terrorize our streets. We have provided millions of 
dollars to support policing in Baltimore City. And the results, 
better trained police force, better equipment to investigate 
crimes and track down criminals. We have supported community 
strategies in 12 hot spot communities in Baltimore that account 
for almost a third of the city's violent crime. And the result, 
we have had a 40 percent reduction in violent crime in our 
city's most challenged neighborhood.
    We have also begun to invest fundamentally in how offenders 
are supervised. Particularly, drug addicted offenders. When I 
first became Lieutenant Governor, an average parole probation 
officer would have enough money to do seven drug tests per 
month for a case load of over 100 offenders. That is seven per 
month for a case load of over 100 offenders. Obviously, they 
had no idea who was doing drugs, how often they were doing 
drugs, and what drugs they were doing. And this is a time that 
we knew from national research that over between 50 and 60 
percent of all the cocaine and heroin used in the United States 
are used by people on parole or probation. In other words, the 
very people that were under our supervision were those that 
were fueling the drug trade. And this did not make any sense at 
all. And so we decided to change it.
    In 1996 under Judge Weitzman's leadership we started a Drug 
Court. And in 1999 building on the lessons of the Drug Court we 
began to implement Break the Cycle, Maryland's path-breaking 
effort to change behavior of people on parole and probation. 
This combines a regular drug test with treatment and the 
scheduled sanctions. Today over 11,000 offenders are under 
community supervision. Drug use has dropped by more than half 
in the first 4 months among offenders who are being tested 
twice a week. And recidivism dropped by 29 percent among the 
sample on Baltimore City. In other words, it worked.
    In the last few years the State of Maryland has doubled the 
amount of money that we are spending in drug treatment in 
Baltimore City. We have invested another $16 million. And this 
year in this year's budget, we are asking for another $13 
million, which may not sound like a lot to Congressman, but for 
our state it is substantial. And $9 million to go to Baltimore 
City. We are working to make sure we get that budget funded. 
And I know you have been very helpful, and as well, 
Commissioner Norris. And I want to thank you for it.
    But let me just tell you about the results in the last 2 
years. Emergency room admissions are down, overdose deaths are 
down, crime is down, and behavior that spreads the deadly AIDS 
virus is down. Let me just say, it works, it is effective, it 
can be done well.
    But I am not just talking rhetoric. We have also launched 
first in the state, first state to do effectiveness evaluation. 
We are working with John Carnavali, who used to be at HIDTA, to 
ask him to work throughout the state to see which kind of 
treatment works for which kind of offender, or which kind of 
drug abuser so that we are not just talking about how many 
slots we have. We are talking about what slot, what is needed 
for which kind of person. And I am telling you it has been 
effective, it works. And the good thing about it is that as we 
work with treatment programs throughout the state, each one is 
saying, we want to work with you. We want to know what works. 
We want to be here to help people get off of drugs. We do not 
just want to receive more dollars. We want to make sure those 
dollars are used well.
    I thank you so much that you have come and heard this this 
morning. You will soon hear from the mayor and the commissioner 
of police who I think share that same message. Drug treatment 
works. You need smart law enforcement. And you treat drug 
treatment and you can really make a difference. Thank you very 
much.
    [The prepared statement of Ms. Townsend follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.003
    
    [GRAPHIC] [TIFF OMITTED] T4447.004
    
    [GRAPHIC] [TIFF OMITTED] T4447.005
    
    [GRAPHIC] [TIFF OMITTED] T4447.006
    
    [GRAPHIC] [TIFF OMITTED] T4447.007
    
    Mr. Souder. Thank you. As I said earlier, as an oversight 
committee we swear in our witnesses. So therein, police 
commissioner, if you could rise and take the oath.
    [Witness sworn.]
    Mr. Souder. Let the record show that both witnesses 
answered in the affirmative. And we appreciate you coming 
today. Mayor O'Malley, would you like to give your testimony 
next?

     STATEMENT OF MARTIN O'MALLEY, MAYOR, CITY OF BALTIMORE

    Mr. O'Malley. Sure. Absolutely. And I appreciate your 
coming. My trip was a lot shorter than yours, I suspect. Mr. 
Chairman, members of the committee, I want to welcome you, 
first of all, to the greatest city in America. And I appreciate 
the opportunity to speak with you about some of the success we 
have been having here in Baltimore, which would not have been 
possible without Federal help. On both sides of the political 
aisle, across the United States, I think there is a growing 
consensus that effective drug treatment has to be part of any 
serious effort to reduce crime. You cannot talk about criminal 
justice, you cannot talk about safer streets without also 
talking about, and more importantly, without funding drug 
treatment.
    For years many of us were engaged in this pointless debate 
pitting law enforcement dollars against drug treatment dollars. 
And what we have proven here over the last couple of years in 
Baltimore is that we can move past that debate, we can do more 
of both. And we can do it in a way that makes our streets a 
much safer place. We have done that in Baltimore.
    One, just 2 years ago Baltimore was No. 1 among major 
cities in terms of drug, in terms of violent crime. No. 1 in 
terms of drug addiction. I am glad to report now that over 
these last 2 years Baltimore has been No. 1 among major cities 
in the reduction of violent crime. A double-digit, back-to-back 
reductions of about 21 or 23 percent. Baltimore was No. 1 among 
major cities in reducing drug related emergency room 
admissions, according to the Federal Government Health and 
Human Services report, down by 19 percent. One of only two 
cities that was actually going down. The one that followed us 
was San Francisco, which had about a 12 percent reduction.
    And by making progress on both of these fronts, we have 
dramatically reduced the number of citizens in our city who 
have died from drug related deaths, whether it is from 
homicides or overdoses. If you combine the murders and the 
overdoses in 1999, 628 of our fellow citizens died from 
overdoses and murders combined. Last year that number was 502. 
Still 502 too many, but 126 lives saved in two short years of 
working hard on this problem.
    This progress has required significant investments. It has 
required an unprecedented partnership between Baltimore City, 
the State of Maryland, and our Federal Government. Congressman 
Cummings, I want to thank you and your colleagues for your 
leadership you have shown, and that investment in Baltimore's 
turnaround.
    On the law enforcement front city government has been the 
lead investor, as well we should be, increasing city spending 
by $32 million in 2 years. And this investment has been 
supplemented by a $9 million COPS grant.
    On the drug treatment front, the State of Maryland, under 
Governor Glendening/Townsend administration, has been the lead 
investor in increasing its level of treatment by funding by $16 
million with a promise of an additional $9 million. I have my 
finger crossed because Legislature is in session.
    The rise in state treatment funds since 2000 has been 
accompanied by an increase in local, private and Federal 
funding from $11 million to $14 million over that same time 
period. Just last month Hopkins and the University of Maryland 
and Morgan State issued a report on the effectiveness of drug 
treatment, noting that after 1 year in Baltimore City, heroin 
use dropped 69 percent among those that were in treatment, 
cocaine use dropped 48 percent, criminal activity dropped 64 
percent. We have also become very much a performance driven 
organization as local government. We track a lot of, and each 
of our departments through CityStat or the police department 
through Comstat. CityStat, by the way, is just an expanded use 
of Comstat. We deploy our resources to where the problems are. 
We measure for results. And programs have shown that they are 
getting results get the increased funding.
    We do this now with regard to drug treatment programs. Dr. 
Beilenson joining us here, our health commissioner, who chairs 
DrugStat where we measure retention rates, recidivism, all 
sorts of indicators as to whether or not a person is actually 
moving out of that self-destructive cycle of drug addiction.
    Two weeks ago John Walters, Director of the Office of 
National Drug Policy, came to Baltimore to talk about national 
goals that for the very first time targets specific reductions 
in drug use. Ten percent in 2 years and 25 percent in 5 years. 
Director Walters was very familiar with our efforts here. And 
we intend to do our share to meet that national goal. And I 
think it was encouraging to him to see a city like ours turning 
things around and making those sorts of dramatic strides. The 
citizens of our city and state have benefited greatly from this 
partnership. We move beyond the zero sum debate.
    With your leadership, the people of our Nation can benefit 
from a similar approach. We cannot arrest our way out of this 
drug problem. We cannot only treat our way out of this crime 
problem. We have to do both. We have to disrupt the supply by 
jailing dealers and reduce demand by showing their customers a 
better way to live.
    And I thank you all very much for your leadership and for 
hearing me out.
    [The prepared statement Mr. O'Malley follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.008
    
    [GRAPHIC] [TIFF OMITTED] T4447.009
    
    Mr. Souder. Thank you for your testimony. Commissioner 
Norris.

  STATEMENT OF EDWARD T. NORRIS, COMMISSIONER, BALTIMORE CITY 
                       POLICE DEPARTMENT

    Mr. Norris. Gentlemen, I want to thank Congressman Cummings 
and everyone else for this opportunity, because this is 
extremely important to the police department. One thing that 
both the Lieutenant Governor and the mayor touched on was the 
fact that in the past this was mostly mutually exclusive. 
People thought that the police chiefs would not be in support 
of drug treatment and we have a different goal or agenda. And 
nothing could be further from the truth. Because the fact is 
what we have been saying since we got here was you cannot 
arrest your way out of this problem. You don't arrest your way 
out of a crime problem bringing a city back to where it needs 
to be. We have been saying for several years.
    When I got here, you know, I got my initial brief on the 
standard of the city. And the picture was not very bright. And 
we were No. 1 in every crime category in America at the per-
capita rate. And the DEA came in and they spoke to me. And my 
briefing was even more chilling. We were No. 1 in emergency 
room admissions for both heroin and crack cocaine. Not good.
    In 2 years this has come down and come down dramatically. 
We may have one of the sharpest declines in America, if not the 
sharpest crime decline in the last 2 years in violent crime, 
which did not happen by accident. And did not happen by police 
intervention. But we are a much more effective police 
department, I believe. We are doing a better job at what we do, 
and that is you know, our deployment, our investigations. We 
are a real police agency again. And we are very proud of that.
    But the fact is, is the hard work of all the people in this 
room, from Annapolis, from the Mayor's Office, the health 
commissioner, and the people on your side of the table that 
this has happened. Because what people do not realize or they 
do not think about initially is at first we talk about the 
nexus between drug usage and the drug problem with the crime 
rate, people automatically get homicide rate and the murder 
rate. Which is, it is an obvious connection because just 
about--we estimate about 80 percent of all murders are 
connected to the drug trade. Hard to know, but that is what we 
assume because of what data we do get from our victims, 
victim's families and the like. That is where our focus is on.
    What people forget is that the rest of the rate, the 
overall crime rate of your city is mostly by your property 
crime. People talk about homicides in any city, it is a 
terrible one, it is the one you should focus on because it is 
the most serious crime, but is by far the smallest number.
    We are talking about property crime, you think how is this 
fueled. I mean, when people have $50 to $100 a day drug habits, 
they have to get the money from somewhere. And where they get 
that money from very often is breaking into cars, breaking into 
homes, stealing small items, robberies on the street, selling 
their bodies. Whatever they may be doing they got to come up 
with the money. And by doing this, and this meaning providing 
treatment and treatment dollars to help people get off their 
addiction, you are helping us, you are helping us all. And you 
make my job a whole lot easier.
    And the one thing that I am very happy to report today is 
that not only do we have this very substantial violent crime 
drop in the past 2 years at approximately 23 percent, but this 
year our overall crime is down dramatically about 21 percent 
for part-one crime, which includes all the crime, murder rate, 
robbery, burglary, auto theft, and the like. That is what I am 
really encouraged by.
    The murder rate is coming down and it is coming down every 
year. And we are very, very happy with that. But what people 
have to look at is our overall crime is coming down. And I am 
convinced that this has to do with it. Because in the last 2 
years, as you have heard from the Lieutenant Governor and the 
mayor, we have had a tremendous drop in emergency room 
admissions. I think, and I believe you will hear from Dr. 
Beilenson later, we may be leading the country. And I am 
convinced this is way we have been so successful. This is a 
partnership between the police and the health community. We 
cannot do it alone. And we have been saying that since we got 
here. You are not going to arrest your way out of the crime 
problem in any city. It is part of what I do. That is the side 
of the business I am in is the enforcement side. But without 
the intervention of the health community and all of the things 
that they are doing, we would not be nearly as successful.
    So I would just like to say as the head of the police 
agency for the city that we are very much in support of drug 
treatment. And I just want to get on the record by saying so. I 
have said in the past the smaller venues but they are not 
mutually exclusive. And the police department is very, very 
much in support of drug treatment dollars coming this way.
    I just want to thank everyone for hearing me out today.
    [The prepared statement of Mr. Norris follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.010
    
    [GRAPHIC] [TIFF OMITTED] T4447.011
    
    Mr. Souder. I want to thank each of you for your testimony. 
I am going to yield to Congressman Cummings for the first 5 
minutes of questions.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I want 
to thank all of you for being with us today. And I want to 
thank all of you for being about the business of building lives 
and not just sending people that got into trouble and let us 
just sort of throw them away and move on. And that means a lot.
    Commissioner Norris, one of the things that when the drugs 
hearing at the Tuerk House 2 weeks ago and the mayor and 
Lieutenant Governor were there, afterwards I did a little 
survey of some of the people that were in the room, 12 people. 
And of the 12 people I asked what was their average when they 
were using drugs, how much money did they spend during a period 
when they were unemployed. And the average person was $110 per 
day. That is a lot of money.
    So it goes back to what you said about the property crimes. 
If you are not employed then you, you know, you spend $110 a 
day, I mean, even us to spend $110 a day, that is a lot of 
money. And so it has got to come from somewhere And I, you 
know, I was just thinking as you were talking, probably a 
better barometer, a measurement, measuring tool of 
effectiveness in regard to crime would be the property crimes.
    Because, and I have said this to you, Mr. Mayor, I think it 
is when I look at the murder situation, it is hard. I mean, 
because you have got to have some--the only way I can see you 
really getting to the murder situation most effectively is 
intelligence. I mean, if someone wants to harm somebody, then 
they are going to do it. I mean, and unless you know it, it is 
kind of rough. But I mean, I applaud you. And I really mean 
that for doing what you have done.
    Let me just ask you, Lieutenant Governor, about this whole 
thing of working with people after they get out of prison. The 
chairman and I would guess most of the members of our 
subcommittee are very impressed with this New York Program. And 
you all may want to comment on this, too. The VTAP Program 
where one of the elements of the program is that they finds job 
for these folks. Because one of the things that they noticed 
that people go right back to the same corners.
    Ms. Kennedy Townsend. That is correct.
    Mr. Cummings. I think the mayor was talking about this the 
other day, they go right back to the same corners. And the next 
thing you know they are back in jail or they are back dealing 
drugs or whatever. And we see this revolving door.
    Ms. Kennedy Townsend. Right.
    Mr. Cummings. And one of the things that apparently, 
assuming that you have counseling and then treatment and all 
that kind of stuff, and if you can help them find jobs, it 
seems that would be one of the key elements that so many 
programs do not have.
    Ms. Kennedy Townsend. That is exactly right. Thank you for 
asking that, Congressman Cummings. As you may know, the State 
of Maryland has launched three initiatives to help stop the 
recycling of prisoners back into prisons, to help offenders get 
their lives together.
    One of the things we have learned is that one of the 
biggest challenges is in fact housing. That people come out of 
prison and they do not have a place to live. And so one of our 
efforts has been to focus on housing. Combined with that is 
obviously job training, some of which occurs in the prison, 
some of it occurs when they are on parole and probation under 
supervision. Drug treatment, very critical.
    As you know and as you said, 11,000 of the people on parole 
and probation are in our Break the Cycle Program. They are in a 
drug treatment program. And so what they need is housing, they 
need roots in the community, they need job training. We have 
launched a number of efforts to connect people who are getting 
out of prison with mentors in the community, with job 
interviews. We have done a number of, you know, efforts to make 
sure that they learn how to have a job interview, as well as 
drug treatment.
    If you combine those three aspects, I think you can really 
make an impact. In fact, the Justice Department has highlighted 
one of our programs already. And we hope in the coming years 
that we will grow them based on what we learn from these three 
initiatives.
    But each is really crucial, the housing, the drug treatment 
and the job training. As well as, helping the person get the 
job.
    Mr. Cummings. Mr. Mayor and Commissioner Norris, what have 
we learned that from your experiences that we could transfer to 
other cities as far as effectiveness of bringing down the crime 
rate with regard to drugs? I mean, we are always talking about 
looking at other places. It seems like we have been very 
effective here. And I am sure you all have learned some things 
since you have been in office. And I was just wondering what 
kind of things, because we are always trying to figure out what 
we can take from one place and take it to a higher level, more 
or less national. And I am just wondering what have you learned 
in this process? I know it has only been a short time.
    Mr. O'Malley. I think the most important thing that we have 
learned here, Congressman, is that it is not an either/or 
proposition. You have got to do both. The former Drug Czar 
said, you know, in Washington we have these debates all the 
time about whether we move enforcement dollars into treatment, 
or whether we move treatment and interdiction dollars into 
enforcement. He said, and the truth of the matter is, it is 
like pouring a half-full glass back and forth thinking that 
sometime, you know, it might fill up one of the two glasses. 
The truth of the matter is we need to do more of both. That is 
the most important lesson that I think has come out of 
Baltimore.
    Commissioner Norris is far more expert at the enforcement 
end of things. And Dr. Beilenson is here. Speaking just briefly 
for him, I do not know if he testifies later, but the 
wraparound services we found has been critically important.
    You can create a whole bunch of additional slots. Or you 
can improve the quality of the treatment you are providing in 
terms of the random urinalysis or the job placement or helping 
people get stable homes. And I think those things are thing 
that he will probably tell you have we have learned ourselves 
over these last couple of years as we ramp up with the 
additional dollars. That more slots does not necessarily mean 
that you are more effective. But more effective slots mean you 
are able to treat more people in a more lasting way.
    Mr. Cummings. Before we get to you, Commissioner, I met 
yesterday with the Enterprise Foundation, Mr. Mayor. And they 
were telling me that they are coming up with this program to 
help people when they come out of prison, to try to, you know, 
do a lot of things for them. Basically, it was what the 
Lieutenant Governor and you just said, give them the kind of 
support system. And I was wondering are there entities to your 
knowledge that are doing the same thing that is outside of 
government? And I mean, is that something that we should look 
forward to more folks doing?
    Mr. O'Malley. I know that the, maybe Dr. Beilenson might be 
able to speak more to this. I know that the Open Society 
Institute had some initiatives that they were starting to roll 
out.
    I think this is a battle for all of us. You know, too often 
we think that it is up to government, everything is up to 
government. Well, it is true that only government can swear 
police officers and give them the badge and the gun and those 
arrest powers. While it may be true that government has a big 
role to play in providing treatment for those who are 
uninsured, the fact of the matter is, this battle is 
everybody's battle.
    So I would hope that as we progress and as we start 
establishing this track record as a national leader, that 
success will become contagious. And the churches will realize 
that indeed there is a calling and there is a mission for every 
church to be involved in the lives of people coming out of 
prison and helping them become more stable, productive members 
of society by reaching out. But Dr. Beilenson may be able to 
know more of the other program.
    Ms. Kennedy Townsend. And just on that, I would say that we 
have a productivity council at the State of Maryland. And it 
was chaired by Jack Kingsley, private industry. And he started 
this effort to recruit businesses to be mentors and to do job 
training and to do--helping with people coming out of prison.
    Because he understood, first of all, we had a job shortage 
for a long period of time, as you know. And they wanted to make 
sure that they were getting as many people employed as 
possible. So there was a lot of self-interest on the part of 
the business community to make sure that they were working with 
people coming out of prison. And it has been productive so far. 
As you know, it is one of the three initiatives that we have 
launched.
    But and I would say one other thing, and I just add on to 
what the mayor said about what works. I think there was an 
article in the New York Times a couple of weeks ago that said 
very clearly, the longer somebody is in treatment, the better 
chance they have to get off of drugs. And so to the extent that 
we do not focus just on slots but how long somebody can stay in 
the slot and what incentives we can get to somebody who stays 
in treatment I think the better off we are.
    And I think that is why Break the Cycle has been effective. 
But that is why other programs work the best, if you can get 
them to stay in the program for a longer period of time. 
Because that is really what works the best.
    Mr. Cummings. Mr. Beilenson, I mean, Norris, I am sorry. I 
apologize.
    Mr. Norris. That is all right, Congressman. Just to 
reiterate what the mayor and Lieutenant Governor just said 
again and give you a brief description of how we run the Police 
Department now.
    The basic philosophy in our police and strategy is that 
here as in other cities, you have got small core criminals that 
cause you all your grief. And you are focusing in on that small 
core. And the better you do addressing them the faster your 
crime rate goes down. The same philosophy applies to the drug 
treatment. And I will explain why.
    The violent criminals are obvious. The predatory criminals 
that shoot people, they do not commit one shooting, one murder, 
get a square job and go drive a truck the next day. They made a 
decision at this point in their lives very often as adults. But 
we catch these people and very often they go to prison and for 
long periods of time.
    What is helpful about having people in effective drug 
treatment, and this is again just to back up 1 second, as you 
stated before with the murder rate, people always focus on the 
tie between the drug problem in America and the murder rate. 
And it obviously is tied but at a different level. It is how 
you have to deal at the top. The people that are providing this 
poison for our streets are the ones that are shooting each 
other for business purposes. And they always kind of confuse 
the two.
    Where the overall crime rate that we are talking about here 
is driven by the people who are abusing the drugs and being fed 
this stuff than the drugs dealers. And they are two very 
distinct things. The very serious violent problem we focused 
on, they are all these business wars going out there. The 
fighting over turf, product that may be sold and may be 
missing, moneys and the like. For the junkies on the street, 
the people that are using and are caught in this addictive 
cycle, as we talked about before, it is about $100 a day, $110 
when you spoke to these folks. That is what we hear.
    The point is, the way we run the Police Department, you got 
a person who is committing a series of crimes in every 
neighborhood, be it robberies, burglaries and the like. The 
quicker you identify them and bring them to the bar of justice, 
your crime rate goes down because they do not commit all the 
crimes they would had they been left out there.
    It is in the drug treatment. If you got people who are in 
need of treatment and are unemployed, and they are going to be 
unemployed if they have a drug problem. They are not going to 
hold onto their jobs if they are addicted to any kind of 
alcohol, drugs, whatever. They are going to be unemployed 
sooner or later. They are going to get the money somehow. And 
that is going to be by the petty crimes we talked about.
    The more people get into drug treatment and get back on 
track and get their lives back in order, get them housing, get 
them jobs, get them off this terrible addictive cycle they are 
in, again, that is going to bring your crime rate down. And 
that is the business I am in, is looking at the bottom line of 
crime reduction every day. And that is why I am such an 
advocate for treatment.
    Because it is very helpful for us as we look at the whole 
crime picture in the city. If you take, even if you cannot 
address, you are never going to get everybody off drugs in any 
city. But the more people you help incrementally, you bring 
people off, you get their lives back, make them productive 
citizens again, you reduce your crime rate by that much because 
each one of those people is back at work, hopefully, not 
committing crimes to feed their habit. And all those victims 
that would, you know, ordinarily be victimized no longer are.
    Because if it is, you know, if it is 100, if it is 1,000, 
you just multiply that by crimes they would need to feed their 
habits. They are not committed in the future and your crime 
rate goes down substantially.
    And that is what we have learned.
    Mr. Cummings. Thank you.
    Mr. Souder. Commissioner Norris, one of the interesting 
steps that I was recently told, I have always assumed that 60 
to 75 percent of all crime is related to narcotics and alcohol 
abuse. But I had a civil judge come up to me and tell me that 
in his court cases he felt it was also true in child support, 
divorce cases. And in the civil side, usually we talk the 
criminal side, but it is interesting that drug and alcohol 
abuse is the No. 1 reason, by as you mentioned, people do not 
hold jobs, they can't pay the support to take care of their 
kids. And it is even more than just a violent crime.
    I had a kind of--let me ask, I have two questions. One 
relates to what is actually being done while people are 
incarcerated. That I heard you say that juveniles have a 
probation program targeted for that in Drug Court.
    Ms. Kennedy Townsend. And for adults.
    Mr. Souder. And for adults for probation.
    Ms. Kennedy Townsend. And parole.
    Mr. Souder. And parole. Is anything done while they are in 
prison to anticipate? One of the things that happened a number 
of years, excuse me, a number of years ago was we increased the 
number of people who were locked up. Now many of them are 
starting to come back out on the streets. Part of our decline 
in crime around America is because we simply took the criminals 
off the street.
    Now we are faced with they are coming back out. In Indiana 
the law states they have to go back into the neighborhood they 
were originally arrested, which means that neighborhoods that 
have respectively been cleaned up are now about to get another 
wave in.
    Have you started to anticipate that, have you worked in the 
prisons and what are you doing in that area?
    Ms. Kennedy Townsend. Yes. We do have drug treatment in the 
prisons. We could clearly have more in the prisons. But we have 
also made a choice to put most, many of our drug treatment 
dollars for the people that are on parole and probation.
    Because as I said earlier, 60 to 70 percent of cocaine use 
and heroin use is used by these individuals. These are the 
individuals who are already out in the streets and in the 
neighborhood. So they are most--they use the drugs on one hand, 
and they are most dangerous to the community on the others. And 
very frankly, if we get them off of drugs, we will reduce the 
need for cocaine and heroin, you know, on one hand. And we will 
reduce the crime rate on the other.
    So it was the choice, very frankly, of where we put our 
treatment dollars. We do have drug treatment in the prisons. 
But we have focused mostly on those who are going to be 
greatest harm to those on the streets.
    Mr. Norris. From the city side, I am not really the person 
to speak for this. It is not a police issue. But I do know from 
the mayor's strategy at the cabinet meetings, one of the things 
we have done is there is, embarrassed to say, they provide jobs 
for folks in the city. They get the job training and actually 
find employment for people who need it in Baltimore City. 
Bonnie Siepel runs the program. And one of the things they have 
done is they have asked us for releasees and the like who were 
getting, you know, coming back to neighborhoods who just 
recently were released from prison. And they have gotten 
businesses to agree to take these folks on board. So in 
response they will actually provide employment for them once 
they come back to the city.
    And so the short answer is yes. There is a program and 
strategy in place to actually get people jobs when they came 
out.
    Mr. Souder. So that process starts 3 to 6 months before 
they are to be released?
    Mr. Norris. That is right.
    Ms. Kennedy Townsend. That is exactly right.
    Mr. Souder. And also, Governor Townsend, maybe you can 
address this. Do you see differences in the--we are always in a 
dilemma in Congress and everybody who talks about drug 
treatment has this, or drug abuse has this same problem. On the 
one hand, we say everybody uses drugs, it is equally spread 
around the country. Yet when we normally look at the violence 
figures they are greatest in the lowest income.
    We talk about housing needs, we talk about job need, which 
generally implies that the problem is predominately in low 
income. Certainly, the criminal side is because often that is 
where people come in and wreck the neighborhoods in the low 
income area where the dealers are.
    What I wonder is, do you see differences in suburban, rural 
trends from urban Baltimore, are you nuanced in the strategy in 
Maryland? What kind of pressures do you see? Because I assume 
that in Maryland, as it elsewhere, drug usage is not just 
concentrated in the urban center.
    Ms. Kennedy Townsend. No, no. It is not.
    Mr. Souder. And what are the patterns that are similarly--
--
    Ms. Kennedy Townsend. No.
    Mr. Souder [continuing]. Economic or, and then how do you 
adjust when you are looking at drug treatment?
    Ms. Kennedy Townsend. That is a very good question. In 
fact, we have the University of Maryland something called the 
DEWS system. The Drug Early Warning System, which has showed us 
what kind of drugs are used in different parts of the state. 
And very frankly, I would love to submit as part of my 
testimony a description of who uses what drugs where. And it 
changes.
    As you have heard, Baltimore uses a lot of heroin. In the 
suburban areas ecstasy has become more popular. There are other 
parts of the state that really focus more on alcohol. And I 
think down to Washington, if my memory serves me right, this is 
from looking at this about 6 months ago, cocaine has been more 
used.
    So we do have different strategies. And that is why we have 
this evaluation system that says what kind of treatment is best 
for what kind of user. I would say, however, that I think a lot 
of people use drugs wherever they are, you know, some of our 
toughest neighborhoods, as you may know. And I say this before, 
my brother who clearly did not grow up in that tough of a 
neighborhood, died of a drug overdose. My other brother was a 
heroin addict for 15 years. So I think it is important.
    And on the radio this morning on an ad that says drug 
treatment works, they were talking about a neurologist who had 
been overdosing on prescription drugs. So I think--and which is 
also a terrible abuse. So I think it is important for us all to 
understand that drug abuse hits everybody in some place or 
another. It could be alcoholism, it could be heroin overdose. 
And what we are doing at the state level is evaluating what 
works in what places because we do have very different profiles 
of who is taking the drugs and what drugs they use..
    Mr. Souder. Congressman Cummings, do you have----
    Mr. Cummings. Just one other thing, Lieutenant Governor. 
There is a program which the State had something to do with. 
And they--which has been very effective in getting jobs for 
Preston--and the reason why I know so about it is his office is 
literally across from our office. But the State Department of 
Economic and Employment Development worked with them and the 
unions. It is an amazing situation. And they are--the unions 
are helping to train folks who are coming right out of prison.
    Ms. Kennedy Townsend. Right.
    Mr. Cummings. Starting them at $9 to $11 an hour. And this 
agency actually monitors their conduct and whatever. So and 
they just told me, Mr. Daley just told me the other day that 
they have gotten Wyatt and Turner, one of our big contractors 
in this area, well, across the country really, just guaranteed 
them 300 jobs. So this thing can be done.
    Ms. Kennedy Townsend. It can be done.
    Mr. Cummings. Yeah.
    Ms. Kennedy Townsend. We are now much more focused on the 
transition into civilian life than we had previously. We had 
been focusing on other issues. But now that we are putting more 
drug treatment, we are going to do the wraparound services.
    And I am glad you focused on it because it has been--I 
think we need that. We also need in prison, besides drug 
treatment, education. Because there is a strong correlation 
between how educated people are and whether they are 
recidivate.
    So if you are looking at ways that Congress could help, 
more money for drug treatment, more money for education in the 
prisons I think would make a big difference. And more help with 
training.
    And I know that in the President's budget he cut some of 
the drug treat--he cut some of the training dollars, you know, 
job training dollars. And I would ask that you look at that. 
Because that could be very useful as well.
    Mr. Cummings. I think by the time the budget finishes it 
may be quite different than what the--what we started out with.
    Ms. Kennedy Townsend. That is why you get to be elected to 
Congress.
    Mr. Cummings. Yeah, yeah. Thank you. So I want to thank 
both of you, and of course, the mayor, for being with us today. 
I know your schedules are very busy. And I just encourage you 
all to stay on the path. Because the people that you are 
affecting every day in a very, very positive way that will 
never come up to you and say, thank you.
    As a matter of fact, some of them may be upset with you. 
But the fact is, that a lot of good things are being done to 
help lift them up and their families. And so we really do thank 
you.
    Ms. Kennedy Townsend. Thank you, Congressman.
    Mr. Souder. Thank you. And I want to assure you too, that 
in the budget process that it is like labor negotiations, an 
opening offer. And it always embarrasses the President if some 
Member from the other side puts their budget up. I think 
Reagan's budget got two votes when he was in. Clinton got one 
vote, the person who is steadfast. And I am sure a similar 
thing would happen here. In fact, one of the things I am not 
doing this morning was speaking to a job training conference. 
And Welsh and I sit on that subcommittee also.
    Ms. Kennedy Townsend. Oh, good.
    Mr. Souder. And I can assure that the job training money 
never goes down. It is questionable whether it is going to be 
flat or how much it is going to go up. Because it is so, 
particularly with the softness of the economy. But I do want to 
thank you----
    Ms. Kennedy Townsend. Thank you.
    Mr. Souder [continuing]. For your efforts. And understand 
that these problem are very complex. Often when we see exciting 
new programs like Drug Court and some of these programs the 
expectations can outstrip reality.
    Ms. Kennedy Townsend. Right.
    Mr. Souder. The truth is is that people's--the reason 
people get involved with this is very complex. And it is not 
like they are all going to suddenly be turned around. And as 
the general public understands that when we work with drug 
treatment or drug prevention, it is incremental. And hopefully, 
we can all be successful.
    And thank you for your efforts.
    Ms. Kennedy Townsend. Thank you very much. I appreciate it.
    Mr. Souder. If the second panel could come forward. Ms. 
Renee Robinson, the Honorable Jamey Weitzman. And maybe you can 
just remain standing so we can do the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative. Ms. Robinson, could you go ahead 
with your testimony.

  STATEMENT OF RENEE ROBINSON, TREATMENT AND CRIMINAL JUSTICE 
        PROGRAM MANAGER, WASHINGTON, DC-BALTIMORE HIDTA

    Mr. Robinson. Good morning. I would like to thank everyone 
for the opportunity to come in to share about the work that we 
are doing at the Washington Baltimore HIDTA.
    I am the Treatment and Criminal Justice Program Manager at 
the HIDTA. I am responsible for the 12 initiatives that are 
part of the Treatment Criminal Justice Project. And those 12 
initiatives are spread throughout the region and the State of 
Maryland, northern Virginia, as well as, the District of 
Columbia.
    And what HIDTA provides--what actually HIDTA is funded 
through the Office of National Drug Control Policy. And we are 
now affiliated with the University of Maryland, who is our 
fiduciary. So subsequently, the University of Maryland provides 
subcontracts to these jurisdictions to expand or enhance their 
treatment services continuum.
    HIDTA funds are very flexible in that we have opportunities 
to support the Break the Cycle effort. Our model and our 
philosophy is very similar to Break the Cycle. So subsequently, 
while HIDTA funds will provide additional treatment slots in 
the Break the Cycle jurisdictions, we stress a continuum of 
care for the offenders who are involved in the HIDTA Project. 
We require that they are extensively supervised. We also want 
them to be drug tested on a frequent and regular basis. And we 
try to retain them in treatment as long as we possibly can. So 
subsequently, the outcomes for the offenders who are involved 
in HIDTA funded treatment are very good.
    We had at our last evaluation a 70 percent reduction in 
recidivism over the 12 jurisdictions that were involved in the 
Treatment and Criminal Justice Initiative. And I think that is 
pretty outstanding considering the rate of recidivism that you 
find in most programs.
    One of the things that HIDTA does is stress accountability 
and responsibility for the offenders who are involved in our 
program. That is a cornerstone. I have been involved in 
providing treatment services in jails and prisons throughout my 
entire adult career. And one of the things that I found to be 
most problematic was the fact that offenders often times slip 
through the cracks while they are involved in supervision. And 
subsequently, were not held accountable for long periods of 
time after they committed crimes against the communities.
    And what HIDTA wants to do is to approach treatment not 
from a hug-a-thug mentality, but one of responsibility. One, to 
make sure that these offenders, if they commit crimes against 
the communities, are held accountable for our sanctioning 
process. That the drug use stops, that they are tested to 
insure that they are drug-free and that they are crime-free 
while they are involved in our projects.
    And we focus on best practices. We fund programs that have 
been proven to be effective with the offender population. We 
are not specifically based on a medical model. Although we have 
an eclectic, we allow the program to have an eclectic approach 
to the treatment services that they offer. But what we want 
them to stress is addressing the criminality. Addressing the 
criminal thinking pattern, the criminal behaviors that continue 
to allow these offenders to commit crimes in our communities. 
And once we have an opportunity to address these issues with 
these offenders, super-
vise them closely while they are an offender, and excuse me, 
while they are in the programs, then we see significant 
reductions in their criminal behavior while they are involved 
in HIDTA funded treatment.
    [The prepared statement of Ms. Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.012
    
    [GRAPHIC] [TIFF OMITTED] T4447.013
    
    [GRAPHIC] [TIFF OMITTED] T4447.014
    
    [GRAPHIC] [TIFF OMITTED] T4447.015
    
    Mr. Souder. Thank you very much. Judge Weitzman.

    STATEMENT OF JAMEY WEITZMAN, JUDGE, BALTIMORE CITY DRUG 
    TREATMENT COURT, AND CHAIR, MARYLAND STATE DRUG COURTS 
                           COMMISSION

    Judge Weitzman. Good morning, Chairman Souder and 
Congressman Cummings. It is nice to see you. Thank you so much 
for allowing me to talk to you about one of my favorite 
subjects which is Drug Court. I know that from the state and 
local perspective they are concentrating on coordinated 
delivery of services. And they have a large perspective. They 
are looking at the forest. But I draw on trees.
    Every day in my criminal court in part two, I see the face 
of drug addiction. I see the devastation that drug addiction 
brings. The dysfunctional families, countless children, people 
who have lost jobs, lost hope, lost self-respect. That is where 
the rubber meets the road in my courtroom.
    And we have been the victim, so to speak, of lack of 
services and coordinated services for many, many years. That 
was the basis for the creation of the Drug Treatment Court. It 
was born out of the frustration of the criminal justice 
community. That what we were doing just is not working. We were 
not really addressing the long-term needs that the folks who 
were committing crimes to support their drugs habits. That 
voila, we have Drug Court, which apparently I have heard from 
your comments, you know, quite a bit about, and certainly, 
Congressman Cummings intimately is familiar with it.
    Drug Court is an extremely intensive, it is intensive 
everything. We provide intensive treatment, intensive 
supervision, probationary supervision twice a week, as well as, 
urine testing twice a week. They even get to see me monthly so 
that I can monitor their services. Perhaps that is one of the 
hallmarks of Drug Court is the traditional oversight. So 
through a system of incentives and sanctions, a carrot and 
stick approach, if you like, we are able to monitor, shape, 
cajole, encourage, if you will, positive behavior of our 
addicts. So in 8 years, almost 9 years now of our operation, I 
am proud to boast that I think this Drug Court, at least in 
Baltimore City, works.
    It is important though that in addressing the problems of 
addicts that you do not just address the addiction per say. So 
which is why I think the Drug Court is so successful. Is 
because we embrace the entire defendant and the needs that they 
have. We address the issues that they have which contribute to 
their drug addiction. So in Drug Court we provide housing, we 
try to address their housing needs. We provide job training and 
placement, GED training. We have a Drug Court Support Group. We 
also provide and teach the meditation techniques. And we have 
developed a community church support group to hook one of our 
Drug Court addicts up with somebody in the church community to 
try to help build the bridges that they have so destroyed. It 
is a very holistic approach.
    And it is coordinated. It is coordinated between us and 
treatment. So while all the components of Drug Court, I would 
like to think I am a critical component, but actually it does 
not work without treatment. Because as much nurturing as I can 
give and finger-wagging, without the education, without the 
information, without the counseling that is provided by 
treatment, it is just not going to work.
    And our folks are in dire need of help. To give you just a 
face of how needy our folks are, the average person who enters 
into Drug Treatment Court in Baltimore City has been addicted 
10, 20, 30 years. They enter into our program with daily 
heroin, cocaine habits, $40 to $200 a day. Can you imagine the 
crimes that are being committed to support that? And their 
criminal records, their criminal history is quite healthy. Now 
they are not violent. But if it was not for Drug Court, these 
folks would be heading to jail.
    And so we surround them immediately with very intensive 
programmatic support. And we get them on the right track. And 
most individuals entering Drug Court attend a 6-week treatment 
acupuncture program, which is in Baltimore City Detention 
Center. Ideally after that we like to send them to transition 
living. Why? Because our folks are in such need of structured 
living environment that we have found that with the double-
punch of the acupuncture program and transitional living, that 
those who receive those things by far succeed more than those 
who do not.
    But that comes with a cost. Because transitional or 
inpatient treatment is one, is the most expensive treatment 
modality. And unfortunately, we do not have the funding ability 
to treat all of the need. So what we have done to skin the cat, 
is we have partnered with non-certified transitional houses. 
And while I am so grateful to the generosity of those folks, it 
is not ideal. Because we do not have the necessary coordination 
with a treatment oversight. We have to send those folks to an 
outpatient program. So it is helpful, it is useful, but it is 
not ideal.
    And so those folks who do not get into Drug Court, we only 
have 900 slots. That is only the tip of the iceberg in a city 
of 60,000 addicts. And almost 100,000 criminal cases last year. 
So the rest of the criminal courts are the ones who have to 
deal with the overflow. When I do not sit in Drug Court I sit 
in criminal court. And one only needs to sit in a criminal 
court or violation of probation docket to notice that we are 
lacking continued, a continuity of long-term sustained 
treatment for our folks. So money, of course, additional 
funding is always the issue. Judge Bell, our chief judge of 
Maryland, is so convinced of the ethicality the treatment court 
merits that he established a Drug Court Commission. And as 
chair of that commission it is my job now to develop a 
coordinated approach to develop Drug Courts throughout the 
system and make sure that we have robust and continued 
treatment for the needy folks in the city, as well as 
throughout the state.
    So I think our path is clear, Congressman.
    [The prepared statement of Judge Weitzman follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.016
    
    [GRAPHIC] [TIFF OMITTED] T4447.017
    
    [GRAPHIC] [TIFF OMITTED] T4447.018
    
    Mr. Souder. Thank you very much. Congressman Cummings.
    Mr. Cummings. Yeah, Judge. First of all, thank you both for 
being here. And, Judge, I was just wondering just one thing. If 
jail is a turn do you think for, in other words, you are 
talking about the carrot and the stick. Do you find that the 
threat of being imprisoned to be something that people--would 
cause them not to use drugs?
    Judge Weitzman. In a Drug Court it is surprising. Folks who 
can do jail standing on their head do not--they avoid it in 
Drug Court. Because we only give them 1, 2, 3 day sanctions, 
maybe a week sanction. It is just enough to make their life 
miserable. They have been out there long enough to establish a 
pattern. It just is very disruptive. And I have had long-term 
addicts and criminals tell me the reason they are clean now is 
because they are not going back to jail. So, yes, I think it is 
extremely effective.
    Mr. Cummings. In the President's budget, if I recall 
correctly, I think it is--there was $2 million increase for 
Drug Courts. And it is already at $52 million. It was, I mean, 
he increased it just slightly. But it could have been level 
funded, or some would say it is level funded because of 
inflation and what have you. But certainly, it could have been 
reduced. So it seems as if the Drug Czar and the administration 
have some confidence in Drug Courts. And that is good, 
especially considering the fact that we are spending the kind 
of money that we are spending now in the war on terrorism.
    And I was just wondering, you know, when you say you have 
900 now, first of all, how do they get to you? I mean, how do 
they get to Drug Court? What is the qualifications?
    Judge Weitzman. We do have a screening process through the 
State's Attorney's Office to identify the right people. The 
right people for us are long-term, chronic addicts who would be 
heading for a period of incarceration if it is not for our 
intervention. We take the worst.
    Mr. Cummings. Well, I think it works, too. And as far as 
jobs are concerned, are you able to find them jobs?
    Judge Weitzman. We do. We have a coordinated effort with a 
program in the Probation Department. And we are now partnering 
with the Enterprise Foundation as well to provide more jobs. 
But the reality is they need living wages as well. The majority 
of our folks enter the program unemployed. And we have about 90 
percent employment rate upon graduation. So we are creating 
quite a few tax payers. But long-term living wages is something 
that is always at issue.
    Mr. Cummings. Before this you were State's Attorney?
    Judge Weitzman. Yes.
    Mr. Cummings. And before that, the State's Attorney was 
your first job as a lawyer?
    Judge Weitzman. Well, my first real job, I used to work in 
Mexico as lawyer. But that did not count.
    Mr. Cummings. The reason why I am asking you that is I am 
just wondering, you know, I am wondering what whether there is 
any real surprises to you when you came and got involved in the 
criminal justice system. It seems as if, you know, in listening 
to your testimony you were talking about you see. And it sounds 
like it has a profound impact on you. And there is just so many 
people, like I said to the mayor a little bit earlier, who see 
folks in these predicaments and they have a tendency to devalue 
them.
    Judge Weitzman. Right.
    Mr. Cummings. And say, you know, they got in trouble. Not 
they it would be, it seems like it would be easy for a judge to 
do that. When you see all these people coming at you and they 
are committing crimes and, you know, to say, OK, let us just 
lock them up and throw away the key. Not throw away the key, 
but lock them up.
    Judge Weitzman. Right.
    Mr. Cummings. And I was just wondering, you know, and there 
is so many people that lack the compassion. And I am just 
wondering, I mean, how does that come about? Because, see, that 
is part of our problem in trying to educate people that people 
still have value. And that maybe they did make a mistake, but 
that they may have fallen but they can get up if we help them 
get up. And I was just wondering was there something in your 
career that caused you to, I mean, maybe you were already like 
that. But I was just--it affected you.
    Judge Weitzman. Yeah. As the State's Attorney, actually I 
was the Chief of the Drug Prosecution Unit. And I used to go 
after king pins. But I used to do a lot of community work. And 
getting into the community you really get to see face-to-face 
what it is, the drug involvement is doing to the families.
    What stresses me the most is as one is chasing drugs what 
are they doing to the children that they have left behind. And 
that is probably the single most motivating factor I have is 
trying to get these families back together. Because the social 
welfare costs for us to do nothing or to do a job poorly is 
devastating on the generations to come. We have generational 
uses, addicts, poverty. And there has to be an end to that. If 
I can get our folks off of these drugs they become reunited 
with their families. For one Drug Court defendant is now 
running the PTA, is the coach of a little league, and has--is 
raising their children. Is that not worth all the money in the 
world.
    Ms. Robinson. Congressman, I would like to address that 
also. I can tell you where it first impacted me most 
significantly. And that was when I was working in the prisons. 
And I started off as a correctional counselor and I worked on 
the weekends. And what I saw was exactly what Judge Weitzman 
said. I saw the faces of the families that were impacted. I saw 
generations of families that were incarcerated in the facility. 
You had the fathers, you had the sons, you had the grandsons. 
And you had a whole cast of children that were fatherless, that 
had no male role models that could potentially help them to 
break the cycle. And then it became to me a mission to want to 
at some point impact the population significantly enough so 
that I would be in a position to help with policies that would 
impact the population. And at some point, put some closure to 
the addiction process.
    Now that is a tall order. Because in order to do this it 
has to be a systematic approach. And one of the things that 
HIDTA tries to do is assist these programs in building 
infrastructure. Because the infrastructure is important. You 
have to have collaboration and communication among the 
agencies. If the Drug Courts and HIDTA and Break the Cycle are 
managing a common client and communicating progress on this 
client and holding this person accountable, then you give them 
an opportunity to stop the behavior. Because that is the first 
thing that you want them to do. You want them to stop using the 
drugs. You want them to stop committing the crimes. Then you 
want to address the problems that brought them to the system.
    Now sometimes you are not able to do all of that. But if 
you can at least get them to the point where they stop 
committing crimes, using drugs, and become productive tax 
payers, with continued wraparound services you give this 
opportunity, this person a better opportunity to reintegrate 
successfully back into the community. And that is what we have 
got to do with these folks.
    They stay incarcerated for years on end, some of them. But 
inevitably they have got to come out. And once they come out we 
have got to be able to address their needs from a systems 
perspective. And systems can no longer function as single 
entities. We have a tremendous demand for services. I mean, we 
are funding programs, like I said, in 12 jurisdictions. But we 
could probably serve every locality up and down the east coast 
and still not begin to address the needs for services.
    So we have to become smarter in the way that we use the 
resources that we have available to us. And make sure that when 
we are providing these services that it is the appropriate 
level of service for that individual. Because drug use is a 
continuum.
    You have offenders who have been in the system for only 
short periods of time. They do not need the same level of 
structure, same level of supervision as someone as Judge 
Weitzman was speaking of who has had an addiction and 
criminality for 20 or 30 years. So the system needs to respond 
to that particular individual's needs and address those needs 
at that level. And all of it again takes collaboration. All of 
it takes coordination. And all of it requires that we are 
compassionate about the population that we serve.
    Mr. Cummings. Mr. Chairman, when the Drug Czar was here 2 
weeks ago, one of the interesting things that, you know, that 
we observed is that he had a chance to talk to 12 people from 
the Tuerk House and they will be testifying shortly. But at 
least three of the people said that they began their drug 
habits when they were 11 or 12 years old. And so these are 
people who are like probably in their thirties.
    So that is kind of scary. And I would imagine the kind of 
environment, when you are talking about generations to come, 
you know, it seems as if we have no other incentive, you know, 
when you see little kids as I see going into elementary school, 
playing hop-scotch and hide-and-go-seek in the kindergarten, 
and the thought that there is a detention center which has just 
been built that I am sure will hold at least 1,000 children, 
and know that detention center is being built, has been built 
for the very children that you talk about, that is rather 
frightening. It really is. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Judge Weitzman, I wanted to just ask 
you a couple of followup questions on your screening process. 
Is it for the long-term chronic addicts, is it voluntary to be 
in the program and they can withdrawal?
    Judge Weitzman. Once they are in, they are mine.
    Mr. Souder. In other words, if they--unless you kick them 
out they cannot voluntarily withdrawal if it is near the end of 
their term?
    Judge Weitzman. I will not let them. Once they volunteer to 
get in the program they are my captives. And I am going to hold 
on to them until they absolutely give me no alternative but to 
violate them.
    Mr. Souder. Because I thought under the law they are 
allowed to withdrawal if they are near the end of their term. 
In other words, if it is the intent of the program was 
voluntary. I understand that the ideal is to keep them in.
    Judge Weitzman. Well, when we run out of probationary time 
and they have not successfully graduated then it will be their 
choice whether they want us to extend it or whether we will 
just go probation. But a few get there. They are either 
terminated out or they are graduates. So we do have a group in 
that category.
    Mr. Souder. And that for the followup when you have the 
wraparound services that do that continue after the period they 
are in Drug Court and that is also voluntary?
    Judge Weitzman. Yes. It is voluntary.
    Mr. Souder. What percentage of your people that you have 
worked with continue in those services for, say, 2 years and 
how long have you had the program?
    Judge Weitzman. I have not done a study on the longevity of 
the graduates in aftercare. We have an aftercare program that 
is set up for them that usually begins while they are still 
under supervision for us. And then continues, hopefully, and 
throughout. Our recidivism study suggests that they are still 
doing very well. So they must be maintaining good aftercare 
plans. Additionally, we have our support group. And some of 
them come back and assist us with that.
    Mr. Souder. It has been a real struggle, one of my good 
friends from college, in fact, we ran in the student government 
election together. He was my vice-Presidential candidate. He 
was democrat and I was a republican. He is now the judge for 
our Drug Court in Fort Wayne. It was one of the first ones that 
they established, I don't know, it is probably getting close to 
8, 10 years ago. And I have gone to the graduations of the 
different people from the program.
    But it is a real battle. Because that is what I was 
mentioning earlier, the expectations sometimes are greater than 
can be done because these people are struggling with a lot of 
issues in their lives, and you try to do the best you can to--
--
    Judge Weitzman. Yeah. I can clean the drugs out of the 
system. It is changing the behavior which is a struggle. It is 
getting them to understand that there are other ways of 
approaching their lives. And that is why the church mentoring 
program that we have, I think, is critical. By the way, I think 
the myth of the magic bullet here is spirituality. I find that 
at least with our group that those who have a spiritual 
connection, of course, with everything else that we are 
providing, do much better. And so if I am able to provide 
different tools through meditation, through support groups, 
through the church group, then we can enhance their success.
    Mr. Souder. I am not overly enthusiastic about the 
potential for tremendous success out of Drug Court. But if it 
does not, the question is what else would. Because it has all 
the earmarks of the only things that absolutely can work. I 
mean, these are chronic people who have a drug problem. Yet 
they are voluntarily choosing to go into the program.
    Judge Weitzman. That is----
    Mr. Souder. Yes, it is a carrot and stick. But that is No. 
1 is that somebody voluntarily choose to try to address 
something. So we have already done that. The second thing is 
you have got wraparound services with it. You have a judge who 
is checking with them regularly. You are doing the drug testing 
with it. You are holding them accountable. If this does not 
work, it is not like we have another option here.
    So just because I say I have concerns about how well it 
will work does not mean that it won't achieve success. But I do 
not see how anything else can work better. Because you have all 
the combination of different issues.
    Judge Weitzman. In my lengthy judicial career, which is no 
more than a decade, I have sat in regular criminal courts and 
drugs courts, and I must tell you that I find that this is the 
most worthwhile thing I have done in my career. And that, no, 
we do not have total success. This population is just too 
tough. But we are by far succeeding better than the normal, 
than the norm.
    So I do not know what the magic potion is to get everyone 
to succeed. I do not think there is such a thing. Because 
people are at different levels at different times. But I am 
convinced that a holistic, coordinated approach greatly 
enhances the opportunities for success.
    Ms. Robinson. And, Congressman Souder, also there are 
different points of intervention for this population. And 
though Drug Court may be a particular point in intervention 
continuum, there is also services available for this population 
in jail, in prison. And that is where they are the most captive 
audience.
    If we are providing services appropriate to their need 
within the confines of the institution, then we are also 
addressing this problem from that particular perspective. And 
once they parole out, then you will have another point of 
intervention. And that is the supervision part in terms of 
parole and probation. And that is one that HIDTA addresses.
    So and then there is the other point that I think no one 
really has mentioned since I have been here, and that is to 
prevent the prevention piece. So we have got to address this 
problem from a multi-task perspective. We cannot just look to 
any one, as Judge Weitzman said, magic bullet to address it. We 
have got to put resources to intervene at different points with 
this population, with the type of services that they need so 
that we are addressing it everywhere they are.
    So that the juvenile facility that you mentioned is going 
to decrease in population. Because we have got funds that are 
available for preventing. If we can get these kids to recognize 
that they do not want to end up where their parents have, where 
their uncles, their mothers, their cousins and brothers have. 
Then we are doing a tremendous job to impact the future level 
of service across the entire continuum.
    You are talking about medical services. You are talking 
about educationally. You are talking about the entire gamut of 
the life experience for that juvenile You can arrest him right 
then, right there with the proper level of services provided 
right where they are.
    Mr. Souder. In your HIDTA you have 43 different 
initiatives. And 12 in the Washington/Baltimore HIDTA are 
treatment and three are prevention. Do you know what the 
approximate dollar is that is given to treatment?
    Ms. Robinson. Sure. $4.5 million to treatment. And I think 
it is about $300,000 or $400,000 to prevention.
    Mr. Souder. And that is out of what size budget?
    Ms. Robinson. I believe it was $11.2 million.
    Mr. Souder. Do you know how that compares to other HIDTA's? 
Because most, I think only five HIDTA's are allowed to do 
treatment.
    Ms. Robinson. Well, from my last understanding it was only 
one other that specifically funded treatment in the manner, or 
similar manner, that we do in Washington/Baltimore. Washington/
Baltimore allows the jurisdiction to actually fund treatment 
that the continuum of services from residential, to intensive 
outpatient, to transitional living.
    Whereas the other HIDTA, which is in Seattle, provides 
prevention services for the lion's share of their money. And 
also provides supplemental funding for the Drug Court. So they 
have approached it from a different perspective than 
Washington/Baltimore HIDTA has.
    Now the other HIDTA that you mentioned may be providing 
money for DARE Programs, which are prevention programs.
    Mr. Souder. Do you target drug traffickers in your 
prevention and treatment in particular, or do you target more 
users?
    Ms. Robinson. We are targeting the--it depends on the 
jurisdictions. One of the great things about HIDTA dollars is 
that we allow them the flexibility to use the funds in the 
manner that is most expeditious for their particular locality. 
So some of them are targeting traffickers.
    But the majority of them are actually targeting the hard-
core substance abusing offender population. And those are the 
ones that are continuing to commit crimes in the communities 
and are continuing to use drugs at a prevailing rate on a daily 
basis.
    Mr. Souder. But do you distinguish whether they are 
trafficking as opposed to large uses?
    Ms. Robinson. Yes. And the interventions that are utilizing 
those individuals in those programs, they do. The mentality of 
that type of offender is different than a street user. So you 
have got to intervene again, as I mentioned earlier, at the 
level where they are. You cannot--there is no really such one 
thing as one-size-fits-all treatment. That everybody can be put 
in the same kind of treatment and you expect that the outcomes 
for that individual are going work. Because it does not.
    Those who are traffickers are persuaded by the lifestyle. 
They want the fast money, they want all of the material 
trappings. So they are not interested so much in the personal 
usage, although some of them are. But most of them want a piece 
of the pie. And they do not want to use the legal means to gain 
it.
    Mr. Souder. We are looking, this committee has oversight 
over the Drug Czar, actually authorizing and oversight. And we 
are looking at the HIDTA's in the reauthorization because one 
of the problems we have in the Federal Government is that when 
there is kind of consensus, everybody moves toward consensus 
and all of a sudden we are paying three to five different grant 
structures to do the same thing.
    That earlier Lieutenant Governor referred to the state 
efforts on drug and alcohol like we have in Indiana where we 
fund the Governor's office to reach out to coordinate community 
efforts on prevention and treatment. And elsewhere we have 
treatment dollars that go in toward treatment. We have Drug 
Courts dollars that are going directly to that. We now have, we 
have really through our subcommittee, boosted up the authorized 
dollars and the appropriating dollars are following for 
community anti-drug efforts. And everybody is coordinating the 
general effort.
    The HIDTA program which is probably, it has evolved for 
past intentions of the HIDTA program and the question now, how 
do we change it. It is almost like every state is developing a 
coordinate effort through their HIDTA which is what you 
referred to as coordinating among groups, which was not the 
intent of a HIDTA. The HIDTA's intent was to be for where the 
trafficking was going through to focus on the trafficking per 
say. That is not to say that the goals are not really good. We 
met with the Seattle people, too, as well as Detroit where 
other, and other cities where the HIDTA's are trying to address 
it. But we have got to sort through not a change necessarily in 
how a community is approaching it, or even the number of 
dollars, but that the dollars are going toward what they were 
intended to go for. Maybe we reduce the dollars for HIDTA's and 
put more into treatment and into a different community 
infrastructure. Target the HIDTA's back more what they 
originally intended to do, which was to pick the highest drug 
trafficking areas and zero in on breaking up the networks. That 
is what we are trying to work through.
    And that was beyond my question. And we will be talking to 
you more directly because you are the primary, I mean, you are 
basically saying close to 40 percent of your funding has gone 
to treatment. Certainly, 40 to treatment and prevention. 
Seattle is the most far along with that. Clearly, trying to 
figure out how to coordinate that with the dollars we are 
putting into the states and the big boost up in the community 
groups. We need to make sure because that was one of our 
questions. Excuse me, I am really battling a cold. To the 
community organizations was how do we avoid paying for 
coordinators three times. How do we make sure that the maximum 
dollars are actually getting to the street level. And it is one 
of the things we will be working through. Do you have any 
other?
    Mr. Cummings. Yeah, just two things. Ms. Robins, just 
piggy-back on what the chairman just said. The President's 
budget cuts HIDTA by $20 million. And I think we have checked 
and it does appear that our HIDTA here will be affected this 
time. But that is something that we really do have to deal 
with. Because I can see what will happen. They will look at 
this HIDTA and say, OK, what he just said. Where can we make 
these cuts. And the cuts will come in those programs that are 
unique, like this one.
    The problem with that is is that the funds that are now 
being used out of the HIDTA piece for drug treatment may not 
ever get back to those individuals who need the treatment. And 
that is a real problem. The only other thing I wanted to say, I 
want to thank both of you, first of all, for being with us. 
And, Judge, you know, as you were talking I was saying to 
myself that, you know, it is so said in this country that so 
often people do not get to the--you all see the faces, both of 
you. You see the faces of these folks and reality. And there is 
just a gap so often with the Congress and the policymakers 
everywhere. Sometimes there is a big gap between the reality 
and the policies that we are making, you know.
    And when you said, Judge, that, you know, out of all the 
things you do as a judge, this is the most meaningful thing 
that you do, whatever you said. I mean, I wish, you know, the 
whole Congress could hear that, you know. Because I mean, that 
is the bottom line. I mean, apparently this is something that 
is effective. And I am sure you feel the same way, Ms. 
Robinson. Something that is effective and it works.
    And this is the first time I have heard testimony, and we 
have heard a lot of testimony over the years, where there is 
actually talk about future generations. This is the first time. 
And we all know it. But it is the first time I have heard it 
talked about in a hearing setting. And so, you know, we--and 
perhaps that kind of focus is what will bring policymakers more 
in line with what is actually happening in our neighborhoods.
    I think that we have made a tremendous, made tremendous 
progress with regard to our community anti-drug program where 
we give community associations dollars to help them fight 
drugs. I mean, I think we have--that is more in line with what 
is happening out there. I think the drug treatment, there is 
still more that needs to be done. Unfortunately, we have 
limited resources.
    And one of the things that I am sure the chairman agrees 
with, and that is that all of these programs because there is 
now such a great competition for the dollars, have to able to 
show effectiveness and efficiency. I mean, it is--that is just 
real. And one of the things that we have been looking at and 
the Drug Czar talked about, not only when he was at the Tuerk 
House, but also when he appeared before our committee to lay 
out his plans, was that he really wants to see the programs are 
effective. And those programs that are not effective are going 
to fall by the wayside.
    And so, you know, I think that we have just have to keep 
all that in mind. And you all have to keep letting people know 
what you know works. And thank you very much.
    Judge Weitzman. Congressman, to convince you of the 
effectiveness, come to the graduation, which just happens to be 
tomorrow. You are all welcome to join us.
    Ms. Robinson. And one final comment also, Congressman 
Souder, although I understand the need to separate and garner 
our resources expeditiously, again, I would want you to keep in 
mind that we have to approach this from a three-prong 
perspective.
    Although the HIDTA's may have initially been designated to 
just address the trafficking, the outcomes that the treatment 
and prevention initiatives have been able to produce since we 
have been involved in that HIDTA far, far exceed I think some 
of the outcomes that you would see with some of the trafficking 
initiatives. Because we are able to put quantitative measures 
on what we do.
    We are not specifically just looking at--well, we are 
specifically looking at the numbers of people that we are 
impacting, and the social costs for those offenders in those 
communities. So I think that what we are doing is truly 
outstanding. And I just want to leave with that.
    Mr. Souder. Well, thank you for your work. We appreciate 
all your efforts to help the kids and families and the 
communities that are so devastated by the drug and alcohol 
abuse. And we appreciate you coming today and giving your 
testimony.
    Ms. Robinson. Thank you.
    Mr. Souder. If the third panel could come forward. Dr. 
Beilenson, Dr. Johnson, Mr. Hickey and Ms. Seward. As soon as 
you all get comfortable and seated I am going to have you stand 
again. So just--as you may have heard me say earlier, we are an 
oversight committee so we swear in all of our witnesses.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative. Dr. Beilenson, you are recognized 
for 5 minutes.

  STATEMENT OF PETER BEILENSON, M.D., M.P.H., BALTIMORE CITY 
 HEALTH COMMISSIONER AND CHAIRMAN OF THE BOARD OF DIRECTORS OF 
         BALTIMORE SUBSTANCE ABUSE SYSTEMS [BSAS], INC.

    Dr. Beilenson. Thank you, Mr. Chairman. And Congressman 
Cummings, thank you for having the folks come up to hear about 
Baltimore. I do not want to reiterate too much because people 
have been talking about our successes and the mayor and 
Lieutenant Governor and the police commissioner talked about 
some of what I was going to talk about. I want to touch on two 
things. One is accountability, the other is effectiveness.
    I have just passed out something, this template that you 
all should have. You have heard about DrugStat and Comstat. 
This is what we use. We used outcome measures. Not how many 
people are seen but actual outcomes in our treatment programs 
to show their effectiveness, just as Congressman Cummings was 
talking about. Because we want to know--there is competition 
for dollars and we want to know which programs work the best. 
Every Friday myself and two of our staff folks who do the stat 
analysis, along with a lot of people from Baltimore Substance 
Abuse Systems, including Bonnie Sieple, our president, meet 
with the directors of the treatment programs. We have a hammer 
over them because we fund them all. They must show up. And have 
usually ten. We do it by modality. So for example, this sheet 
is the method on treatment programs, and this is actually from 
about 9 months ago.
    But we hold them accountable for meeting benchmarks. These 
benchmarks were set and suggested by a national scientific 
advisory committee. They are based on national data. And all 
the benchmarks were set above national averages. So we are 
holding our treatment programs to a higher standards of the 
country's. And it is very simple. We go around, if there is 
someone who is an outlier, we ask them, depending on my mood, 
either the outliers on the positive side or the negative side, 
why are you doing so well compared to other programs, or what 
is the problem here. And they must respond. If they cannot 
respond with a reasonable explanation they have 2 weeks to 
respond in writing.
    If their numbers consistently do not meet the benchmarks 
they get decreased funding and eventually defunded. So we are 
truly, truly doing accountable-based management, or whatever 
you want to call it.
    As I think Judge Weitzman or Lt. Governor Townsend was 
saying, the length of stay in treatment is very important. So 
we do look at retention rates. And at least 3 months retained 
in treatment are a good marker for how effective treatment is 
going to be. So that is one of the things we look at. We also 
look at arrest during treatment. There is a typo at the bottom 
on the arrest column there which is toward the middle that says 
70 percent is the benchmark. Actually it is a 10-percent or 
less getting arrested during treatment.
    We also look at employment statistics. How many are 
employed at admission and how they did at discharge.
    And we look at housing statistics as well. Some of those 
are not on there, they are on the secondary sheet.
    What kinds of things do we do? Well, here is an example of 
how DrugStat actually works. Mr. Souder, since he is the 
majority I will let him do better, if you do not mind, 
Congressman Cummings. The chairman's, Mr. Souder's residential 
treatment program. This is an actual example of what has 
happened in DrugStat, only not Souder and Cummings, of course.
    Mr. Souder's treatment program and Mr. Cummings treatment 
program both have very similar clinical outcomes. But Mr. 
Souder's had a much better employment increase over admission 
than Mr. Cummings. So we asked Mr. Souder, what are you doing. 
Well, they all had the similar wraparound services. And I will 
maybe have time to talk about enhanced services. You cannot 
treat treatment, you cannot treat drug abuse in a vacuum. As 
people have been saying over and over a slot alone does not do 
it. You got to have wraparound services. We have mental health 
services, medical services, housing, jobs, etc. All those 
services are at many of our treatment programs, including 
childcare. But in this case, Mr. Cummings program was sending 
people offsight to a job training program, who then maybe did 
some placement. But, of course, many of our folks do not have 
transportation. Every time you have to go offsight it makes it 
harder to get some place.
    Mr. Souder's program, again this is an actual example, had 
developed a pipeline to three different employers who were 
willing to take a flyer initially on Mr. Souder's statement 
that this guy who was a former incarceree, who has been clean 
now for 4 months, he is a good guy, take a flyer on him. Hired 
him and now there is a good pipeline. So what we have done is 
now initially recommended in all of our contracts with our 
treatment providers that they have these direct pipelines, 
actual employers who will take their clients, and similarly 
requiring them in contracts. Not that every client has to go to 
these employers. But at least there are some pipelines.
    Those are some of the things, the lessons that we have 
learned from DrugStat and that come out from getting everybody 
to meet. Each modality meets about every 4 weeks. But every 
Friday we have these meetings. And we have driven the system 
forward. That has resulted, this accountability has resulted in 
the effectiveness that you have heard from the smart, what is 
it called, Steps for Success, that Jeannette is going to talk 
about a little bit more.
    To show you some of the global effects, these graphs. The 
yellow bars are the number of treatment spots. They have 
increased over the last couple of years. The red line is the 
violent crimes that you heard about from the commissioner and 
the mayor. The blue line is the drug related emergency room 
visits. 2001 is not out yet. That just shows some direct 
correlations that as you increase treatment and make it more 
effective and have enhanced services, you reduce the crime and 
drug related emergency room visits.
    Let me--the only other one I am going to touch on here of 
the graphs, because I do not have too much time, is that the 
cost of, and Jeannette Johnson is going to talk a lot more 
about this, for--you heard briefly that $9 million that was 
pledged in the Governor's budget would serve about 4,000 more 
clients. What does that mean in actual people terms? It means 
approximately 700,000 fewer days of heroin use in Baltimore 
City. It means about 240,000 fewer days of crime being 
committed in Baltimore City. That is how important just 
treating 4,000 folks are.
    And the important point to make is that this investment is 
not, it is not one of these long-term investments. Although I 
am hugely in favor of reducing tobacco usage, you will see 20 
years down the road you will see less cancer. Within a year, 
actually within a month, as you will hear shortly, drug 
treatment dollars start paying dividends in terms of reduced 
crime, increased employment, getting back with their families. 
I guess I have to end.
    But I would be happy to give you some personal evidence 
that this works and more from the city's perspective when you 
have questions. Thank you.
    [The prepared statement of Dr. Beilenson follows:]
    [GRAPHIC] [TIFF OMITTED] T4447.019
    
    Mr. Souder. Thank you. Dr. Johnson.

  STATEMENT OF JEANNETTE JOHNSON, PH.D., PROFESSOR, SCHOOL OF 
               SOCIAL WORK, UNIVERSITY OF BUFFALO

    Dr. Johnson. Thank you very much for having me speak today 
on behalf of the effectiveness of substance abuse treatment. 
There are generally two major questions that are always asked 
of history, and that is, what did we know and when did we know 
it. And the history of the systematic efforts to identify and 
empirically validate treatments is a long one. And for the past 
several decades we have known a great deal about the 
effectiveness of substance abuse treatment.
    From several federally funded nationally surveys and 
studies we have been able to show that when substance abusers 
stay in treatment they reduce their incidence of substance use, 
they reduce their involvement in criminal activity, and they 
increase their involvement in legal and normal day-to-day 
activities.
    The city of Baltimore has once again provided strong 
evidence that substance abuse treatment works to benefit the 
individual and the communities in which they live. In an 
unprecedented 3 year study, Baltimore has not only shown that 
substance abuse treatment reduces heroin use, reduces alcohol 
use, dramatically reduces cocaine use, and reduces crime, but 
the Baltimore study has shown that the substance abuse 
treatment also helps the non substance-abusing resident. 
Because substance abuse treatment decreases the frequency in 
which substance abusers commit crimes for profit.
    Participants in methadone treatment, for example, decrease 
their illegal income from $480 per month prior to entering 
treatment to just $101 per month 1 year after entering 
treatment. And although participants remained at very low 
income levels, we found that they worked more and earned more 
legal income 1 year after entering treatment than they had 
before treatment began.
    Substance abuse treatment also helps America's public 
health. Because the Baltimore study showed that methadone 
treatment decreases risky behaviors, such as going to shooting 
galleries, reducing the risk of transmitting or contracting 
HIV, hepatitis B or C, and other sexually transmitted diseases. 
Baltimore substance abuse treatment study shows that after 12 
months the study participants in study abuse treatment reduce 
their illegal income by a total of $3.2 million. And reduce 
their total number of days of heroin use alone by 164,000 days.
    As members of families and communities, we know that we 
need substance abuse treatment. The National Institute on 
Alcohol and Alcoholism conducted an epidemiological survey and 
showed that 48 percent of all Americans are related to somebody 
with an alcohol problem. As healthcare professionals we see the 
social and cultural disintegration results from untreated 
substance abuse disorders. This disintegration travels from 
generation to generation. By not treating substance abuse now 
you almost guarantee the fate of future generations of the 
children of substance abusers to another life of drugs, crime 
and social, cultural and familial disintegration.
    The data on the transmission of alcohol and drug abuse from 
parent to child is fairly clear. We know, for example, that 
sons of alcoholics are more likely to become alcoholic than the 
sons of non alcoholics.
    As scientists we are committed to evidence and not opinion. 
It is not merely our opinion that substance abuse treatment 
works for the benefits of all Americans. It is decades of 
accumulated evidence from federally funded surveys and studies 
that shows the effectiveness of treatment.
    Now the city of Baltimore has provided the strongest 
evidence to date. This is not our opinion, this is not our 
guess, and it is not our political view. The data shows that 
substance abuse treatment really works.
    In conclusion, I can answer two of those historical 
questions. What did we know? We know that substance abuse 
treatment reduces heroin and cocaine use. We know that 
substance abuse treatment reduces drinking. We know that 
substance abuse treatment reduces criminal activity. We know 
that substance abuse treatment reduces the risky behaviors 
related to HIV.
    And when did we know it? We have known it for a long time. 
But now with the Baltimore study we know it again. We now have 
the strongest evidence to date that shows us that we know how 
to stop the demand for drugs. We know how to treat alcohol and 
drug addiction. We can do it effectively. People shouldn't have 
to wait or be turned away.
    And in conclusion, substance abuse is a problem we know how 
to treat. And we save money, children, and countless lives by 
doing so.
    [The prepared statement of Dr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T4447.020
    
    [GRAPHIC] [TIFF OMITTED] T4447.021
    
    [GRAPHIC] [TIFF OMITTED] T4447.022
    
    [GRAPHIC] [TIFF OMITTED] T4447.023
    
    [GRAPHIC] [TIFF OMITTED] T4447.024
    
    [GRAPHIC] [TIFF OMITTED] T4447.025
    
    [GRAPHIC] [TIFF OMITTED] T4447.026
    
    [GRAPHIC] [TIFF OMITTED] T4447.027
    
    Mr. Souder. Thank you. Mr. Hickey.

STATEMENT OF JOHN HICKEY, DIRECTOR, TUERK HOUSE DRUG TREATMENT 
                             CENTER

    Mr. Hickey. Good morning. It's a pleasure to be here. It 
certainly is compared to going to the regular DrugStat 
meetings. I am John Hickey, Director of Quarterway Houses, 
Inc., which includes Tuerk House, the 76 bed, abstinence-based 
residential treatment center here in Baltimore.
    While Tuerk House treats many people involved in the 
criminal justice system, I will be focusing my remarks today on 
two groups in particular. The first group is composed primarily 
of men referred by the Department of Parole and Probation. The 
second group is composed of women referred by Alternative 
Directions, a private agency funded by the Department of 
Corrections to facilitate the release of women from prisons and 
jails.
    The experience with Parole and Probation has produced a 
rather dramatic outcome. Of the last 50 clients referred by the 
Department of Parole and Probation and admitted to Tuerk House, 
44, 88 percent, have completed the 28-day residential program.
    The second program, Alternative Directions, moves women 
from jails and prisons to the Tuerk House residential program, 
and then to continuing care in the Quarterway Outpatient 
Clinic. All the while Alternative Directions is providing case 
management and wraparound services. Last Friday, 11 women 
referred by Alternative Directions were included in a class of 
38 men and women graduating from the outpatient clinic. Each of 
these women had to participate actively in the outpatient 
program and achieve a minimum of 7 months drug free in order to 
graduate.
    It is clear that both of these criminal justice programs 
are very successful at identifying people involved in the 
criminal justice system who are in fact receptive to treatment. 
Because we cannot effectively identify those whose criminal 
behavior is the result of their addiction, and are in fact 
amenable to treatment, we would be well advised to divert drug 
dependent people from jails and prisons. And if they are 
already in jails and prisons, we need to get them out and into 
treatment. We cannot afford as a society to imprison those who 
would respond to treatment and become contributing members of 
society.
    I must call to your attention, however, that the existing 
resources are not capable of treating all those in need. We 
provide a support group for people waiting for a treatment bed 
to become available in Tuerk House. Recently, there were 29 men 
in attendance. Since 70 percent of our residents are heroin 
dependent, the men in the holding group are at great risk every 
day that we simply release them to the street. We actually lose 
about 30 percent prior to admission. This is not a paper 
waiting list. This is a group of our fellow human beings with a 
life-threatening condition and we need to respond to their 
cries for help in a more expeditious manner.
    I would like to call your attention to what I believe are 
three key treatment issues.
    First, I would like to mention that while Tuerk House is 
abstinence-based, we use Buprenorphine for detoxification from 
heroin. We know that people have stayed away from treatment in 
the past because they are afraid of withdrawal. Our experience 
is that Buprenorphine offers a substantial relief, reduces the 
fear, and increases admissions.
    Next, I would like to point out that while we define 
alcoholism and addiction as chronic relapsing conditions, we 
provide abstinence-based treatment only in time limited models. 
Ultimately, everyone is discharged. I believe the universal 
practice of discharge is the most fundamental flaw in 
abstinence-based treatment in the United States today.
    We have made a beginning to deal with this issue by 
establishing a peer support program at Tuerk House. Peer 
support is a self-help relapse prevention strategy for people 
that have received treatment. The key idea is to stay connected 
to the treatment agency and to stay connected to those who have 
had the benefit of treatment and are now striving to live in 
recovery.
    Finally, it must be stated that a 28-day treatment program 
like Tuerk House is just the beginning of treatment. No one 
leaves Tuerk House without a referral to an outpatient program 
or halfway house. For many people, Tuerk House is essentially 
phase one of the Baltimore Substance Abuse Systems, Inc. 
continuing of care.
    Thank you for inviting me to share with you this morning.
    [The prepared statement of Mr. Hickey follows:]
    [GRAPHIC] [TIFF OMITTED] T4447.028
    
    [GRAPHIC] [TIFF OMITTED] T4447.029
    
    Mr. Souder. Thank you very much. Ms. Seward.

      STATEMENT OF ELIZABETH SEWARD, GRADUATE AND PROGRAM 
         COORDINATOR, TUERK HOUSE DRUG TREATMENT CENTER

    Ms. Seward. Good afternoon. Thank you for allowing me to 
come to speak to you today. My name is Elizabeth Seward. I am a 
recovering addict and a graduate of the 28-day program and 
outpatient program at Tuerk House.
    I will tell you briefly a little bit about my story. I 
began using drugs to fit in. I guess I began about 20, in my 
early 20's. And it started out as fun, you know. I was a 
functional addict, I considered myself a functional addict for 
a number of years. I worked as a factory worker and trained 
other workers on machinery. I know--a lot of us would be using 
drugs in the workplace, you know, alcohol, marijuana. And that 
is where I started.
    And it kept me from understanding I was an addict. I did 
not know I was an addict at that time. At 39 I started sniffing 
cocaine, which led me to using crack. That crack devastated my 
life for 7 years.
    In 1997 one of the worst things that happened to me in my 
addiction was the lose of my daughter to the disease of 
addiction. She had started using and she used crack before I 
did. And she told me, mommy, do not pick that up. But I always 
had a mind-set that anything that I used I controlled. It was a 
mind over matter thing. So I knew, did not think that I would 
have a problem because I had been using for a number of years. 
And working and doing all the things that I am used to doing. 
And I picked up crack, picked up a rock. And I never thought 
anything that small could bring me to my knees. Seven years of 
pain.
    For 2 years after my daughter's death I was still on a 
downward spiral with the crack. I isolated, cut myself off from 
everybody. I worked, used and, you know, that was it. You know, 
I had two sons and two grandsons. But I thought I was being a 
mother too because, like I said, most of my addiction I worked. 
But basically, I was not being a mother to them because I could 
not even take care of me. My oldest grandson is blind, he has 
been blind since he was 3 years old. So he was 13 when his 
mother passed. And he saw the devastation of my daughter's 
disease and my disease. So I allowed him to move out of my 
house.
    There is a lot of things that I could tell you that I could 
not write down, you know. You all said to me, we have 5 
minutes. But I want you to feel what an addict feels, you know.
    I did everything, stopped going to corners. I would go--I 
did not know that I was an addict because I was not out there 
on the corners, I was not using dope, I did not have the big 
hands and all of that, you know. So being a functional addict, 
you know, I worked. You know, I did not sell my body, I did not 
do the things that they did out there. So I was not an addict.
    I continued until I fell on my knees. And I asked God for 
some help. That is how I was led to the Tuerk House. I did not 
know what Tuerk House was. When I stepped up those stairs at 
the Tuerk House. I did not know Tuerk House was a treatment 
center. I thought it was a halfway house dealing with people 
coming from jails or somewhere that they needed a place to go. 
But I knew I needed some help. And I did not know what to do. 
So I went up those stairs and I went into the outpatient side 
and I asked for some help.
    And they told me I was dealing with grief--or I was not 
dealing with my grief. I was not dealing with my depression. 
The higher I went up on cocaine the harder I crashed on 
cocaine. I knew nothing about the drug. A drug that I was 
sending through my body, I knew nothing about. I was actually 
killing myself.
    And Tuerk House saved my life. Tuerk House brought me in on 
the day of my daughter's death. It was my lifegate. My daughter 
died like August 25, 1997. I came to August 25, 1999, exactly 2 
years to the day of my daughter's death. So I considered my 
lifegate to her death day today.
    I did a 28-day treatment program where I got information on 
the disease of addiction. Went through the continuing care 
program where I continued to get more information on my 
disease, because it is an ongoing process. I also got with 
people just like me to help each other, who help each other to 
get better a day at a time.
    By getting through these two programs at Tuerk House I had 
gotten better with me. By going through the recovery process I 
was allotted the opportunity to give back in a special way. I 
now am a staff member at the place where I got my help. I 
coordinate a group called the peer support group. This group is 
a tool for relapse prevention. It is a self-help support group. 
The members of this group were clients in the Tuerk House 
program and joined this group on a voluntary basis, volunteer 
basis to help--get extended help.
    Members of the peer support group are allowed to come as 
long as they want. The disease of addiction is for a lifetime. 
So we have to continue to do work on our recovery. That is what 
the peer support group allows its members to do.
    We help each other by sharing our stories and commitments, 
such as the Baltimore City Detention Center, the Johns Hopkins/
Bayview CAP Program which helps pregnant women, most of who are 
addicts, the Maryland Youth Center and the Mountain Manor Youth 
Center where a lot of our youths are in there have the problem 
due to the fact of parents and family members being on drugs. 
And that is the only lifestyle they know. Also we go in and we 
try to give them some help to guide them back to the right 
path.
    At our weekly peer support meetings we use topics that help 
us deal with different things we go through on a daily basis 
such as relationships, let go and let God, change you must or 
die you will, anger problems, steps and traditions that are 
dealt with through the fellowship.
    We let group members know that they must network together, 
go to meetings, share, and reach out to others to help in their 
recovery process. We share information with others that may not 
know that they have a problem, or know that there is help for 
them. All these are important tools to help each of us to 
recover, in our recovery and to help others in their way, to 
find their way to recovery.
    And the final thing I would like to say is, I am doing this 
to let you know that we do recover. My daughter's birthday 
would be Sunday. She would have been 32 years old. If she had 
some information, if I had had some information about the 
disease of addiction, that we had a disease and not just--did 
not know--wanted to get high. When we wanted to get high. We 
had a disease that was uncontrollable. And a lot of people have 
died because they do not have this information. That is why it 
is so important for the treatment and the educational part to 
get to these people that are still out here using.
    I thank you for giving me the opportunity to speak to you.
    [The prepared statement of Ms. Seward follows:]
    [GRAPHIC] [TIFF OMITTED] T4447.030
    
    [GRAPHIC] [TIFF OMITTED] T4447.031
    
    Mr. Souder. Thank you for being willing to speak out. And 
we appreciate the information from each of you. Congressman 
Cummings.
    Mr. Cummings. Thank you, Mr. Chairman. Mr. Johnson, Dr. 
Johnson, I am sorry, the Steps to Success report, it seems like 
something like this would have been before somewhere. Why do 
you think that has not happened?
    Dr. Johnson. There is a long, there is a huge commitment 
from Mayor Schmoke in the very beginning to the city of 
Baltimore. And the city officials as well as Peter Beilenson 
were really invested in finding out how Baltimore was doing. 
And it took a very coordinated effort on their part to start 
it. And then they worked in collaboration with the 
universities.
    So it took a long time to think about doing it, to get the 
political support to find the money to do it. And we have had 
these program evaluation techniques for a long time. We know 
how to do it. But we have the backing of the city to really 
explore the status of Baltimore's substance abuse treatment 
system.
    Mr. Cummings. Perhaps you and Dr. Beilenson may want to 
respond to this. When you do a--you all know research and how 
you validate research. I was just wondering, when you have a 
study in which a lot of the information is self-reported, I 
mean, does that effect the outcome? I mean----
    Dr. Johnson. Well, we----
    Dr. Beilenson. A lot of it was not self----
    Mr. Cummings. OK.
    Dr. Johnson. We actually have urine data to corroborate the 
self-report findings.
    Mr. Cummings. OK.
    Dr. Johnson. And we have archival data which is from the 
criminal justice system to corroborate the self-report findings 
as well. So the criminal data that you see there is not self-
report. It is from the criminal justice system of Baltimore, 
actual arrest records.
    Mr. Cummings. Dr. Beilenson, when you read the report was 
there anything that surprised you?
    Dr. Beilenson. No. You know, we have been talking about 
this, I have been in this job for 10 years. It is clear to me, 
as it is I know to you from hearing you in the many venues, 
that this is the most significant problem facing Baltimore. You 
know, it affects the economy of the city, it affects the 
educational system, it affects the housing system, and it 
clearly affects health and obviously crime. And we, I mean, it 
is lovely to have this study. But there is nothing surprising 
in it because we know treatment works.
    Mr. Cummings. Ms. Seward, thank you. I thank all of you for 
your testimony. But I was just wondering when you went from 
cocaine to crack, you in your testimony it sounds like that was 
a major move. I mean, as far as your life, devastating your 
life was concerned. Is that true?
    Ms. Seward. Yes.
    Mr. Cummings. Why?
    Ms. Seward. I lost a 17-year job within a year-and-a-half 
of picking up crack. I knew I had a problem that something was 
wrong, but I did not know what the problem was.
    Mr. Cummings. So you were, I think you used, you said you 
were a functional addict.
    Ms. Seward. Yes.
    Mr. Cummings. So in other words, with cocaine you could 
function.
    Ms. Seward. But I only used cocaine maybe about 6 months 
before I picked up crack.
    Mr. Cummings. And so when you picked up crack then----
    Ms. Seward. The crack was, it was just an ongoing thing, 
you know, where I would go to work normally. Sometimes I would 
go to work after being up all night long smoking. And I would 
go in and I would be trying to do paperwork and going the 
things that I would normally did. I was going to put myself and 
other people's lives in danger, you know, because I could not 
focus. My focus was getting through that 8 hours or 10 hours or 
whatever I would have to do to get back home to go back to 
crack.
    Mr. Cummings. If you had had insurance then that covered 
drug problems would you had taken advantage of it? Or did you?
    Ms. Seward. I am not sure. Well, let me put, they had just 
started I think with treatment, sending people to treatment on 
my job at that time. And because I did not know that I had a 
problem, I did not--it would have never even crossed my mind at 
that time.
    As a matter of fact, I had a friend of mine that was in 
recovery for 3 years. I put him in danger because of about 6 
months of my addiction I hid it from him. And understanding 
today that what you can do to a person that is in recovery if 
you were using, you know.
    I know that today. But then I had no information. I knew 
nothing about recovery. You know, I did not understand it, the 
concept of recovery.
    Mr. Cummings. And how long were you on crack?
    Ms. Seward. Seven years.
    Mr. Cummings. And so just a short period of that time you 
worked or----
    Ms. Seward. I worked most of my addiction. I did a 
geographical change. As a matter of fact, after I lost the--my 
17-year job and moved because I do not have family here. So I 
moved back to where my family was. My family put me back on the 
right track. Now understanding that I am an addict so I take it 
with me. So when I went to move back to Virginia, I just 
moved--I just found crack there then. I was getting high all 
over again.
    Mr. Cummings. Now you offer a very unique perspective and 
probably is a good person to answer this question. One of the 
things that we are always concerned about and we try to figure 
out is how do we provide effective treatment. Effective. Now 
you have been on the addict side and now you are on the 
treatment side. And you might want to also answer this, Mr. 
Hickey. What are the elements that you believe have to be in an 
effective drug treatment program?
    Ms. Seward. Well, for me, the 28-day treatment is fine. But 
once you come out of there, the information in those 28 days 
with comparing that to being out there on the street for 20 
years getting high, that is not enough. So we need to focus on 
is the outpatient part of treatment.
    Because like I said, it is a lifetime disease, just like 
any other disease. I had to have continuous care. Or if you do 
not, you are going to end up relapsing or go right back.
    So one, continued care at the Tuerk House, we had 36 
sessions that they go through. But my group which is the peer 
support group is an ongoing group of self-report, self-help 
supporters. We support each other. And we have been pushing for 
to make this in other facilities because we all came out of the 
Tuerk House, did the 28-day, did the continuing care. But we 
know we need more. We need to keep in contact with each other 
as well as the facility we came out of if you are continuing 
care going.
    Mr. Cummings. What happens when somebody that you have been 
real close to in the group and who has been a real, I mean, 
doing a good job and of course, like you said, you are 
supporting each other, and somebody then relapses? I mean, how 
does that affect you?
    Ms. Seward. That is kind of hard. But I understand that 
some people have to have a relapse in their story. So we are 
still there for them. We do not go and pull you out of the 
crack house and pull you out of the--but when you decide to 
come back we are there for you. We just continuously give each 
other support.
    Dr. Beilenson. By staying connected what we see is that you 
can minimize what the slip, you can keep it from becoming a 
total relapse. When we graduate people and discharge people and 
we give them the idea, now kind of we have taught you 
everything you need to know to survive out there, what happens 
when they have a slip is they are very embarrassed to come 
back. They are ashamed and say, I am in trouble. So you will 
see them try to manage the slip on their own. And they will--
when they finally come back it is 6 months later and they are a 
mess, you know.
    So what we really try to do is, and trying to do on a 
larger level, is keep people connected and to feel comfortable 
and saying, I am in trouble. Can you help me, you know. The 
definition is it is a chronic relapsing condition. Certainly 
for the folks we see that have ten, 20, as Judge Weitzman said, 
10, 20, 30 years. They are in late-stage addiction.
    If you come into Tuerk House, you are in late-stage 
addiction. You are not experimenting with drugs. You are drug 
dependent. And you may well experience a relapse. So we have to 
make sure they know if they are in trouble, even before they 
pick up, that is the key. Before you pick up and you are 
thinking, hey, are you in trouble, you need to know you have 
friends that you can come back and talk to that have been 
through it. And you need to know you can walk up to a counselor 
and there is no judgment about, oh, you failed or you are a bad 
person or any of that. And that is kind of what this peer 
support effort is about.
    But we see it with case management. If you leave Tuerk 
House we send you to an outpatient program somewhere in the 
city. But we, from a small case management project we did in 
the last year, you could see that when people would be falling 
out of that outpatient treatment, a good chance the case 
manager would have been actually tracking them to make contact 
to get them back in. So what you ultimately do by investing on 
a kind of a long-term community-based support system is you 
maximize what you have invested in this residential treatment, 
which is expensive.
    Mr. Cummings. Thank you.
    Mr. Souder. Dr. Beilenson, I had a few requests on your 
chart. That one, the effective increased treatment on drug use 
and crime. Could you provide us with a list of, for the record, 
of where you got the--which hospitals you used on the ER's and 
what--and which crimes were combined together to get violent 
crimes? Do you have a chart that takes us back 10 years?
    Dr. Beilenson. I am sure we could. We have not done that 
but I am sure----
    Mr. Souder. OK. If you do not have it we could try to 
assemble that, too, if just make sure we compare it apples to 
apples. Also, do you know whether the numbers of arrest went up 
during these years or prior to it, which also would take people 
off the street?
    Dr. Beilenson. The arrests went up slightly the last year 
or two. But and that may or may not have played into it. One, 
on your request, if we could do it 7 years. Because the blue 
data, that emergency room data, comes from DAWN, which I think 
is only 7 years old. So----
    Mr. Souder. Try to get apples to apples we will do that.
    Dr. Beilenson. So that would make it 1994.
    Mr. Souder. Yeah, something like that. And did you pick 
1999 because that was the year----
    Dr. Beilenson. The year the mayor started.
    Mr. Souder. OK. I understand that. Do you know whether the, 
because we will also look at this data, whether other around 
counties had the ER and violent crime rates go down?
    Dr. Beilenson. They would not know that because the DAWN 
study which that is based on the national study, was the top 21 
cities in the country. So no other city in Maryland would fall 
in that. It would be comparing, you know, Indianapolis, 
Washington, DC, Chicago, those kinds of cities.
    Mr. Souder. But there is a--and you have compared to those 
other cities?
    Dr. Beilenson. Correct. That is what the mayor and 
Lieutenant Governor, the single biggest drop in this, in DAWN 
data, in this emergency room data, was in Baltimore of the 21 
big cities.
    Mr. Souder. What about in the violent crime?
    Dr. Beilenson. We have the largest drop, 2 year drop in the 
last couple of years in America.
    Mr. Souder. Now the violent crime data, one of the reasons 
to get the crime--the fundamental problem we have in Congress 
and each of us as a member is the crime rate, generally 
speaking, has been coming down everywhere.
    Dr. Beilenson. Right.
    Mr. Souder. And that different people attribute different 
programs for that. For example, one area may have boosted their 
education. One area may have boosted their job training. One 
area may have new--they have reduced dramatically the number of 
kids who are assigned to probation officers. And then they say 
that is the reason that the crime dropped. There is no arguing 
that individually the treatment programs help the individual.
    What is the harder argument is to make the collective 
argument. And we have to make sure that the data is in fact the 
classic studies on this. And in fact, Baltimore was in this, 
and Minneapolis on teen pregnancy, that where certain programs 
are put into the schools the teen pregnancy rate dropped in 
Minneapolis. But nationally dropped greater in the areas around 
it where they did not put the programs in.
    And so we have to make sure that we--that this is not a 
question of a----
    Dr. Beilenson. A trends data.
    Mr. Souder. Yeah. It is not--well, it is not just trends. 
It is that when we see a change in society's behavior patterns, 
we have to make sure which variables were causing the change on 
a collective basis as opposed to an individual basis. Because 
the truth is is that, as you have pointed out, not that many 
people are able to get into the intensive treatment programs in 
proportion to the number of people who are----
    Dr. Beilenson. We are getting about 22,000 folks out of our 
50,000 to 55,000 addicted individuals in treatment each year. 
So it is a sizable percentage of them.
    Mr. Souder. And that presumably would cause a reduction 
when you are reaching that many. But that is why I wanted to 
see whether there were other trends that were helping more of 
those people be willing to come in, whether there are other 
trends. And one way you measure that is compared to other 
cities like you attempted to do. And then also to the 
communities in the immediate adjacencies which may or may not 
have the ER rates but they would have the violent crime rates. 
And we have the mix of what crimes they were.
    Miss Seward, first I want to than you for your willingness 
to speak out. And certainly express our praise for you in 
changing your life and sorry that we were not able to reach 
your daughter. That individuals ultimately have to bear 
responsibility, but society should do everything they can to 
help individuals to try to overcome those problems and provide 
that assistance.
    You mentioned that, have you talked with other people, 
obviously you are as a peer counselor, who have dealt with 
cocaine and heroin addictions. You said that you started with 
marijuana and alcohol. Do you know anybody who did not start 
with marijuana?
    Ms. Seward. Most addicts have started with alcohol or 
marijuana. Marijuana is considered the gateway drug. We start 
out smoking it for fun, you know. And ends up leading us to the 
next one and the next one and the next one.
    Mr. Souder. Did you use any kind of cocaine besides crack?
    Ms. Seward. I sniffed cocaine for about 6 months.
    Mr. Souder. And the crack made it more difficult for you to 
function at work than the cocaine did?
    Ms. Seward. Yes. Yes, because the crack, the chemicals in 
the crack, that is why I sniffed so bad. Not because of the 
chemicals--I mean, that is all it is now, is chemicals. But 
back then it was less chemical. And I functioned but I did not 
function to what I normally was able to function. Because I 
stayed up. Crack keeps you up all night, you know.
    You stay going out and buying, going out and buying. And by 
the time you look up the sun is coming up, it is time for you 
to go to work, you know. And you may really like crash unless 
you got another bag. If you got another bag you might choose 
not to go to work, you know. That is how devastating that is. 
Or it was for me.
    Mr. Souder. One of the most difficult problems that we are 
trying to sort through in Congress is how to deal with this 
difference in penalties between crack and powder. Because it is 
disproportionately impacted in the African-American community 
on crack. Now Congressman Rangel originally introduced the 
stiffer penalties for crack because of that impact particularly 
on youth. Now I do not know whether we will wind up probably 
splitting the difference, raising one. But it has become an 
inequity. But it is helpful to understand how the inequity 
originally occurred. Because it does have a disproportionate 
impact.
    You also mentioned in your testimony that you asked God for 
help. Do you say in your peer support group that you go through 
let go and let God work in your life. Also, Judge Weitzman said 
that spirituality was undergirding many of the people who 
recover. What percentage of the people who you work with would 
you say that is a key component if they have had a recovery?
    Ms. Seward. The majority of have asked God--have found 
spiritual connections again. Because once you put a drug for 
me, we always keep it in our statements for me, once you put a 
drug in your system you are dead in the spirit. That is why you 
do not have no conscious. The more you use the less conscious 
you have, right.
    You are removing yourself from God's world and going to 
your world. And that is why you have to get your spiritual 
connection back. Once I fell on my knees and said, God, please 
help me. He guided me where I had let my world go, you know. 
Because I had beat myself up so badly that I thought that God 
was there. But God was there for me all the time. I just left 
him. So I found my way back to him. And he has helped me in 
this process from 2\1/2\; 2-years and 7-months I have been in 
this process.
    So and that is the way most of the group members feel. If 
it was not for God's intervention through the courts, through 
the police, the cops picking them up off the street, through 
the judges, through a counselor at Tuerk House or another 
treatment facility. We look at them as our guardian angel. They 
led us back, you know. They gave us the information to help us 
save our lives, you know, working through people.
    Mr. Souder. Thank you for offering your testimony. Mr. 
Cummings.
    Mr. Cummings. Just to close out again, I want to thank all 
of you for being here. Ms. Seward, I want to go back to 
something that the chairman said. I too congratulate you for 
what you have been able to accomplish. And I too wish that we 
had been in a position to save your daughter.
    And I was just thinking about how depending on when we are 
born and where we are born and the environment we are in really 
kind of dictates in any instances what our lives will be like. 
And so a lot of people may ask, what is, you know, what are 
these hearings all about. It is an effort, first of all, to 
gather information so that we can then take that information 
and mold policy that can help people. That is what it boils 
down to.
    And so our, is sort of trying to figure out what works. And 
it is good to have the testimony of people who deal with this 
up front and personal so that we can then, hopefully, come up 
with the solutions that will save people like your daughter, 
and provide the opportunities like you are, you have been 
provided at Tuerk House, and so that we can be effective with 
what you the tax payers are paying every dime of, you know, 
various programs.
    And so we want to just make sure that we spend that money 
effectively and efficiently. And the more effectively and 
efficiently that money is spent, the more likely it is that we 
will be able to get more funds to do the same kinds of things. 
And so, you know, as being a legislator for now 20 years, I 
realize that you do things 1 day at a time, just like the--you 
know, you have a hearing there, you bring the Drug Czar in 
there, you do something here. And, hopefully, you gather enough 
information and bring enough people together who are thinking 
somewhat the same. You have the research done and whatever.
    The people begin to say, wait a minute. This is what we 
need to be doing just like Judge Weitzman. I think if somebody 
saw, somebody like her come up and say, you know, this is the 
most effective thing I do. And so you get a combination of 
people, black and white, all colors, races and old, young, 
whatever, and bring them together. Then society, finally a 
lightbulb goes off and says, you know, we need to do this. We 
need to address this. And I think saw, Peter, from testimony 
like yours. We are slowly seeing the society say, this is all 
of our problem and not just throwing people away and saying, 
they made a mistake and we will see you later. Let us move on.
    But, you know, the President and others talk about leave no 
child behind. I think what we are trying to do is get to the 
point where we say we leave no person behind. So I thank 
everybody for everything you have done. And thank you, Mr. 
Chairman, for holding this hearing in Baltimore today.
    Mr. Souder. Thank you very much. We appreciate getting your 
input into the global picture as we try to tackle it. But 
ultimately, you are down on the street too winning each soul 
one by one. I remember years ago and when I was with the 
Children Family Committee I spent a number of different times 
up in Newark. And I met this man who worked with Intervarsity 
Fellowship. He said when he first started in the volunteer 
work, which is basically 24 hours a day, had not taken a 
vacation in I think something like 10 or 20 years, had got 
involved in his community. And often it is the people who are 
there. The problems do not usually occur 9 to 5. And he was 
around the clock. And he said, I came here. And when I first 
decided the street ministry and work with the kids and he said, 
I thought I could save all of Newark. And then it was South 
Newark. Then it was my neighborhood. Then it was my block. Now 
if I can just reach one kid at a time.
    And we appreciate your work doing in that and inputting us 
as we try to tackle the global. But ultimately, it is the 
people down in the street talking to the individuals who are 
doing the yeoman's work. And we appreciate that.
    With that, our subcommittee stands adjourned.
    [Note.--The report entitled, ``Office of the District 
Attorney Drug Treatment Alternative-to-Prison Eleventh Annual 
Report, 2001,'' may be found in subcommittee files.]
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4447.032

[GRAPHIC] [TIFF OMITTED] T4447.033

[GRAPHIC] [TIFF OMITTED] T4447.034

[GRAPHIC] [TIFF OMITTED] T4447.035

[GRAPHIC] [TIFF OMITTED] T4447.036

[GRAPHIC] [TIFF OMITTED] T4447.037

[GRAPHIC] [TIFF OMITTED] T4447.038

[GRAPHIC] [TIFF OMITTED] T4447.039

[GRAPHIC] [TIFF OMITTED] T4447.040

[GRAPHIC] [TIFF OMITTED] T4447.041

[GRAPHIC] [TIFF OMITTED] T4447.042

[GRAPHIC] [TIFF OMITTED] T4447.043

[GRAPHIC] [TIFF OMITTED] T4447.044


</pre></body></html>
